<html>
<title> - EXAMINING METRO'S TRACK RECORD: AN OVERSIGHT HEARING ON THE CHALLENGES AND OPPORTUNITIES FACING THE WASHINGTON METROPOLITAN AREA TRANSIT AUTHORITY</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



EXAMINING METRO'S TRACK RECORD: AN OVERSIGHT HEARING ON THE CHALLENGES 
   AND OPPORTUNITIES FACING THE WASHINGTON METROPOLITAN AREA TRANSIT 
                               AUTHORITY

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON THE DISTRICT OF COLUMBIA

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                            OCTOBER 6, 2000

                               __________

                           Serial No. 106-275

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                   U.S. GOVERNMENT PRINTING OFFICE
75-013                     WASHINGTON : 2001

_______________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Printing 
                                 Office
 Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; DC area 
                  (202) 512-1800  Fax: (202) 512-2250
               Mail: Stop SSOP, Washington, DC 20402-0001


                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                PATSY T. MINK, Hawaii
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
DAVID M. McINTOSH, Indiana           ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             CHAKA FATTAH, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
MARSHALL ``MARK'' SANFORD, South     DENNIS J. KUCINICH, Ohio
    Carolina                         ROD R. BLAGOJEVICH, Illinois
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
LEE TERRY, Nebraska                  THOMAS H. ALLEN, Maine
JUDY BIGGERT, Illinois               HAROLD E. FORD, Jr., Tennessee
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
HELEN CHENOWETH-HAGE, Idaho              (Independent)
DAVID VITTER, Louisiana


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

                Subcommittee on the District of Columbia

                  THOMAS M. DAVIS, Virginia, Chairman
CONSTANCE A. MORELLA, Maryland       ELEANOR HOLMES NORTON, Washington, 
STEPHEN HORN, California                 DC
JOE SCARBOROUGH, Florida             CAROLYN B. MALONEY, New York
                                     EDOLPHUS TOWNS, New York

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
                    Melissa Wojciak, Staff Director
                 Howie Denis, Professional Staff Member
              Victoria Proctor, Professional Staff Member
                           Jenny Mayer, Clerk
                      Jon Bouker, Minority Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on October 6, 2000..................................     1
Statement of:
    Fernandez, Nuria, Acting Administrator, Federal Transit 
      Administration, U.S. Department of Transportation; Gladys 
      W. Mack, chairman, board of directors, Washington 
      Metropolitan Area Transit Authority; Decatur Trotter, vice 
      chairman, board of directors, Washington Metropolitan Area 
      Transit Authority; Christopher Zimmerman, second vice 
      chairman, board of directors, Washington Metropolitan Area 
      Transit Authority; Richard White, general manager and chief 
      executive officer, Washington Metropolitan Area Transit 
      Authority; Ron Tober, chairman, American Public 
      Transportation Association; Dorothy Dugger, deputy general 
      manager, San Francisco Bay Area Rapid Transit [BART]; Kathy 
      Porter, transportation planning board, Metropolitan 
      Washington Council of Governments; and Michael Carvalho, 
      Transportation and Environment Committee, Greater 
      Washington Board of Trade..................................    12
Letters, statements, etc., submitted for the record by:
    Carvalho, Michael, Transportation and Environment Committee, 
      Greater Washington Board of Trade, prepared statement of...   149
    Davis, Hon. Thomas M., a Representative in Congress from the 
      State of Virginia, prepared statement of...................     4
    Dugger, Dorothy, deputy general manager, San Francisco Bay 
      Area Rapid Transit [BART], prepared statement of...........   120
    Fernandez, Nuria, Acting Administrator, Federal Transit 
      Administration, U.S. Department of Transportation, prepared 
      statement of...............................................    15
    Mack, Gladys W., chairman, board of directors, Washington 
      Metropolitan Area Transit Authority, prepared statement of.    43
    Morella, Hon. Constance A., a Representative in Congress from 
      the State of Maryland, prepared statement of...............   170
    Norton, Hon. Eleanor Holmes, a Delegate in Congress from the 
      District of Columbia, prepared statement of................    10
    Porter, Kathy, transportation planning board, Metropolitan 
      Washington Council of Governments, prepared statement of...   140
    Tober, Ron, chairman, American Public Transportation 
      Association, prepared statement of.........................    29
    White, Richard, general manager and chief executive officer, 
      Washington Metropolitan Area Transit Authority, prepared 
      statement of...............................................    66

 
EXAMINING METRO'S TRACK RECORD: AN OVERSIGHT HEARING ON THE CHALLENGES 
   AND OPPORTUNITIES FACING THE WASHINGTON METROPOLITAN AREA TRANSIT 
                               AUTHORITY

                              ----------                              


                        FRIDAY, OCTOBER 6, 2000

                  House of Representatives,
          Subcommittee on the District of Columbia,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 1 p.m., in 
room 2203, Rayburn House Office Building, Hon. Thomas M. Davis 
(chairman of the subcommittee) presiding.
    Present: Representatives Davis and Norton.
    Staff present: Howie Denis and Victoria Proctor, 
professional staff members; David Marin, communications 
director/counsel; Melissa Wojciak, staff director; Jenny Mayer, 
clerk; Jon Bouker, minority counsel; and Jean Gosa, minority 
assistant clerk.
    Mr. Davis. Good afternoon. Apologize for the cramped 
quarters. But we would not have the other hearing room 
available for probably another half hour to an hour. We wanted 
to get this moving in a timely manner. We may have a vote in 
the middle of this. I will have to go over and vote. Ms. Norton 
will be taking the Chair at that point. She has committed to me 
she'll not in my absence, running the committee, she won't 
bring up D.C. statehood. So with that understanding--usually 
unprecedented to do, but we have a very good relationship on 
this. We want to get all the testimony in and get to the 
questions and try to make this an informative hearing for all 
concerned.
    Today's oversight hearing will focus on the Washington 
Metropolitan Area Transit Authority. Over the past 25 years 
WMATA has built a sterling mass transit system with an 
international reputation for efficiency and safety that has 
proven to be a model for the rest of the country. As chairman 
of the Fairfax County Board of Supervisors and now as a 
Congressman it's been a great pleasure to work with Metro. I 
know from my experience that Metro officials work hard to 
provide reliable service to meet the needs of its riders.
    Let me just add I had a conversation with Carlton Sickles, 
who is here in the audience, one of the architects of the Metro 
system early on and one of its first board members. And Mr. 
Sickles, thank you for being with us in attendance today as 
well.
    Recently it's been tough to avoid the media reports about 
the various problems plaguing the safety and reliability of 
WMATA's transit services. This summer alone has seen a flurry 
of incidents which have inconvenienced passengers and in some 
cases even frightened them. There has been slow progress 
repairing escalators, persistent overcrowding on buses and 
trains, and fires in Metro tunnels. And then in July we heard 
about the fiasco which ensued during morning rush hour when a 
train stopped for 15 minutes just outside the Farragut North 
station with a brake problem. Four cars were still in the 
tunnel and the passengers remained in the cramped cars without 
air conditioning. There was no communication with the 
passengers to let them know the reason for the delay and the 
train operator was unreachable through the intercom. The 
mishandling of the July tunnel incident could have resulted in 
a serious injury to passengers.
    So the subcommittee is interested in examining the 
mechanisms that WMATA is implementing in order to create or 
augment training for Metrorail operators and increase 
communication with passengers when emergencies like this occur. 
Passengers who were on the train contacted us to describe their 
experiences and made clear that incidents like this shatter the 
public confidence in the transit system.
    Now, there is no question that Metro has enacted several 
significant measures to address these problems. In particular, 
it has begun a $233 million capital improvement program for 
fiscal 2000 aimed at preserving the system and upgrading 
various facilities. Additionally it recently announced planned 
improvements within 60 days to provide better training to 
employees on more effectively communicating with the customers 
about transit outages, and it announced a revised schedule for 
accelerated repairs of the Metro escalators.
    Metro's board has also approved the opening of the Green 
Line extension to Branch Avenue on January 13th, 2 months ahead 
of schedule. Today WMATA's rail service alone is among the 
Nation's largest systems in terms of its annual passenger 
trips, second only to New York City's subway system. Its 
Metrobus service ranks sixth nationally.
    As we all know, the economy in the Washington area is 
booming. High tech companies in particular are attracted to 
this area. With this kind of rapid economic development and 
population increase, the Washington area's reliance on Metro 
will only continue to grow in the coming years. In fact, 
Metro's ridership is expected to increase by as much as 50 
percent over the next 20 years. Therefore, renovation and 
expansion of the system are critical to Metro's future and its 
ability to accommodate customer demand.
    While many problems may be the result of growing pains, 
others highlight the need for improved communication and 
infrastructure. The positive steps that WMATA has taken so far 
has increased customer loyalty and better serve the region. 
However, the subcommittee remains concerned that WMATA faces 
persistent systematic problems that will hinder its expansion 
and progress, and therefore we want to examine these issues a 
little further.
    We are going to hear from representatives of WMATA to 
discuss the challenges it faces in providing adequate, safe, 
secure, reliable and customer friendly transportation services 
to citizens in the region. We'll also hear from representatives 
of BART in San Francisco and the Miami-Dade transit system to 
help us gauge how WMATA's organization and business practices 
compare with other large transit agencies nationwide.
    The subcommittee also expects to hear from the witnesses 
about the extent to which WMATA faces unique challenges because 
of its relationship to the Federal, two States and the local 
governments that influence its operation and decisionmaking 
authority, how WMATA funds its operations in capital 
investments and how WMATA measures its performance in key areas 
and how it develops its performance standards and how WMATA 
gauges customer satisfaction.
    Unfortunately Mr. Danny Alvarez, the Director of the Miami-
Dade transit is unavailable to testify before the subcommittee 
today. A state of emergency has been declared in Miami-Dade 
County because of the heavy flooding that resulted from severe 
storms in southern Florida this week. Mr. Alvarez is part of 
the county's emergency response team. He's responsible for 
coordinating all emergency logistical transportation 
operations. Mr. Alvarez sent me a letter to that effect. I will 
enter it into the record. I think I can speak on behalf of all 
the subcommittee members when I extend my support to Mr. 
Alvarez as he works to successfully manage the crisis facing 
the county.
    [The prepared statement of Hon. Thomas M. Davis follows:]

    [GRAPHIC] [TIFF OMITTED] T5013.001
    
    [GRAPHIC] [TIFF OMITTED] T5013.002
    
    [GRAPHIC] [TIFF OMITTED] T5013.003
    
    [GRAPHIC] [TIFF OMITTED] T5013.004
    
    Mr. Davis. I will now yield to our ranking member, Ms. 
Norton, for any opening comments she has before we allow our 
witnesses to testify and go to questions.
    Ms. Norton. I thank you very much, Mr. Chairman. I 
appreciate your leadership in calling this hearing today. This 
region of the country is increasingly dependent, and I use that 
word in the best sense, on rapid transit, both bus and subway. 
And I would like to see us even more dependent on WMATA than we 
are today. It seems to me not only the preferred methods of 
travel in this region and in this country, it is fast becoming 
in this congested region the only method of travel with any 
hope for getting people home in the same day in which they 
started.
    The Washington Metropolitan Transit Authority's excellent 
reputation has been tarnished by recent events related to 
public safety. The most serious are fire related, especially in 
Metro tunnels. Nearly 600,000 D.C. and regional residents and 
tourists use Metro each day, second in passenger trips only to 
New York City. Thus, failures in the system not only endanger 
riders but the regional economy as well.
    In 25 years of operation Metro's record of safety and 
reliability has not generally been a cause of concern. However, 
an apparent trend of increases in reports of fires began in 
November 1999 when four, or twice the usual number of one or 
two of the preceding months were reported, rising again to 
February 6th to three times that number, and culminating in a 
high of 13 in June.
    We now see a more hopeful downward trend. Beginning in 
July, there were five incidents, in August three and in 
September two. I cannot imagine anything more frightening than 
to be caught in a stalled and crowded subway, particularly if 
there is smoke, with no communication. That sounds like a plot 
for an urban horror movie.
    There have been some indications that the spike in stops 
and reported fires may have constituted an overreaction to bad 
press and public concern rather than to danger from fire and 
smoke. Even if so, that would raise questions about the quality 
of management response to change and crisis within the 
organization. There are undoubtedly many causes. Training and 
communication both internally and with the public are clearly 
deeply implicated. I do not accept that capital improvements 
and upgrading of facilities may be a cause. A public carrier 
has to provide public safety under all circumstances or ``res 
ipsa loquitor,'' as we say in the law.
    The reported incidents do a disservice to a long record of 
reliability. Metro deserves credit for how it has raised 
ridership on buses and subways within innovations that break 
through the conventional wisdom. This is no time to countermand 
hopeful management improvements in ridership with discouraging 
management deficiencies and safety and reliability.
    This hearing should be regarded as an important part of 
Metro's own effort to regain the full confidence of the public 
it has traditionally enjoyed. Only with a thorough airing of 
the current problems and the proposed solutions can the public 
be reassured. We offer that opportunity to today's witnesses 
and look forward to
hearing from each of them.
    Thank you, Mr. Chairman.
    Mr. Davis. Thank you, Ms. Norton.
    [The prepared statement of Hon. Eleanor Holmes Norton 
follows:]

[GRAPHIC] [TIFF OMITTED] T5013.005

[GRAPHIC] [TIFF OMITTED] T5013.006

    Mr. Davis. I now call our witnesses and supporting 
witnesses to testify: Ms. Nuria Fernandez, the Acting 
Administrator, Federal Transit Administration, U.S. Department 
of Transportation; Ms. Gladys Mack, the chairman of the Board 
of Directors of WMATA; Mr. Richard White, the general manager 
and chief executive officer of WMATA; Mr. Ron Tober, chairman 
of the American Public Transportation Association; Ms. Dorothy 
Dugger, deputy general manager, San Francisco Bay Area Rapid 
Transit [BART], the Honorable Kathy Porter, Transportation 
Planning Board, Metropolitan Washington Council of Governments; 
Mr. Michael Carvalho, the Transportation Environmental 
Committee, Greater Washington Board of Trade; the Honorable 
Decatur Trotter, vice chairman, Board of Directors, WMATA; and 
the Honorable Chris Zimmerman, the second vice chairman, Board 
of Directors, WMATA.
    As you know, it's the policy of this committee that all 
witnesses and supporting witnesses be sworn before they 
testify. If you would rise with me and raise your right hands.
    [Witnesses sworn.]
    Mr. Davis. We're going to start, Ms. Fernandez, with you 
and then I understand, Mr. Tober, you have to catch a plane. 
We'll proceed to you and then go down the line back to Ms. 
Mack.

 STATEMENTS OF NURIA FERNANDEZ, ACTING ADMINISTRATOR, FEDERAL 
  TRANSIT ADMINISTRATION, U.S. DEPARTMENT OF TRANSPORTATION; 
   GLADYS W. MACK, CHAIRMAN, BOARD OF DIRECTORS, WASHINGTON 
  METROPOLITAN AREA TRANSIT AUTHORITY; DECATUR TROTTER, VICE 
  CHAIRMAN, BOARD OF DIRECTORS, WASHINGTON METROPOLITAN AREA 
TRANSIT AUTHORITY; CHRISTOPHER ZIMMERMAN, SECOND VICE CHAIRMAN, 
   BOARD OF DIRECTORS, WASHINGTON METROPOLITAN AREA TRANSIT 
 AUTHORITY; RICHARD WHITE, GENERAL MANAGER AND CHIEF EXECUTIVE 
 OFFICER, WASHINGTON METROPOLITAN AREA TRANSIT AUTHORITY; RON 
 TOBER, CHAIRMAN, AMERICAN PUBLIC TRANSPORTATION ASSOCIATION; 
DOROTHY DUGGER, DEPUTY GENERAL MANAGER, SAN FRANCISCO BAY AREA 
  RAPID TRANSIT [BART]; KATHY PORTER, TRANSPORTATION PLANNING 
  BOARD, METROPOLITAN WASHINGTON COUNCIL OF GOVERNMENTS; AND 
  MICHAEL CARVALHO, TRANSPORTATION AND ENVIRONMENT COMMITTEE, 
               GREATER WASHINGTON BOARD OF TRADE

    Ms. Fernandez. Thank you very much, Mr. Chairman. Good 
afternoon, Mr. Chairman and members of the subcommittee. It is 
with great pleasure that I come before you today to discuss the 
challenges facing the Nation's transit providers as they strive 
to deliver a safe, reliable and efficient service to their 
customers.
    This is a significant moment in the history of the Federal 
mass transit assistance program. Over the past several years 
the Congress has provided transit industry with unprecedented 
levels of Federal assistance. Last year alone for the first 
time since the beginning of the Federal transit assistance 
program under President Kennedy transit ridership in the United 
States exceeded 9 billion trips, and based on recent reports, 
transit patronage is up by 4.3 percent compared to the same 
period last year.
    These ridership gains are the result of a strong national 
economy that has put a greater demand on transportation in 
general and transit in particular. These gains are also due to 
the very hard work by transit managers and employees and by the 
investment of substantial financial resources from local and 
State governments with considerable Federal assistance. As good 
as all this is, however, more needs to be done around the 
Nation as well as here in Washington. The greatest challenge 
facing transit industries all across the country is securing 
the resources to meet the increasing demands for transit 
services for their communities and to assure that the current 
transit infrastructure is able to accept the added stress on 
its assets.
    Our recent report to Congress on the conditions and 
performance of the Nation's surface transportation systems 
noted that record levels of highway and transit investments 
have greatly improved transportation safety and enhanced system 
conditions. Still further progress is necessary for this new 
century to keep up with the rehabilitation and replacement of 
existing transit infrastructure to maintain its state of good 
repair.
    All across the Nation, communities have closed the gap 
between their needs and availability of funds by taking full 
advantage of the flexibility that was in ISTEA and now provided 
in TEA-21 in using other surface transportation funds for 
locally determined priorities. I am pleased to note, Mr. 
Chairman, that nationally over $1.6 billion was flexed in 
fiscal year 2000 with over $6 billion flexed since start of 
ISTEA from the Federal Highway Congestion Mitigation Air 
Quality and Surface Transportation programs to transit systems 
across the Nation. In fact, WMATA has received about $13 
million in flex funding in fiscal year 2000.
    Similarly, Congress has provided a range of innovative 
financing tools which several of our Nation's transit providers 
are taking advantage of in order to meet their needs for 
infrastructure financing. Earlier this year WMATA was the first 
agency to receive a loan guarantee of $600 million for the 
Transportation Infrastructure Finance and Innovation Act 
[TIFIA]. This loan guarantee is intended to assist and expedite 
WMATA's rehabilitation program.
    As important as the Federal assistance is, it is at the 
local level where the key decisions concerning how to develop 
and fund local transit operations are made. The most important 
thing for transit agencies to accomplish in order to meet these 
challenges is to assure stable and reliable State and local 
sources of funding for capital and operating needs. The best 
agencies start with a firm idea of their goals and future 
plans. They make realistic estimates of the costs to meet these 
needs and develop an aggressive multifaceted approach with 
local and State decisionmakers and the business community to 
generate the necessary resources.
    Based on data that was reported by all mass transit 
systems, the larger transit agencies typically have dedicated 
revenue sources of funds for their capital and operating needs. 
For example, Los Angeles County Metro and the Chicago Transit 
Authority have a dedicated sales tax, Atlanta has a dedicated 
income tax, and Portland has a dedicated payroll tax. These 
dedicated sources give a great degree of predictability to 
their ability to implement their programs and satisfy their 
infrastructure needs.
    The committee has also demonstrated an interest in FTA's 
oversight of transit agencies. In my written statement I go 
into a great level of detail on our activities, including the 
recent procurement systems review of Washington Metro. As the 
GAO testified before Congress, FTA has improved the quality of 
its Federal oversight programs since 1992, when the program was 
placed on GAO's high risk list. FTA came off the list in 
February 1995, and we have issued guidance for transit 
financial compliance based on their recommendations.
    Coming back to WMATA, WMATA is experiencing the very same 
challenge faced by all of our grantees serving major 
metropolitan areas, such as increased demand for transit due to 
a strong economy, the need to keep pace with their 
infrastructure, maintenance and rehabilitation programs, and 
striking a balance in the allocation of local resources to fund 
the construction of new corridors without affecting the ability 
to deliver current service.
    I want to thank the subcommittee again for the opportunity 
to be here today to discuss the state of transit nationally and 
how Washington Metro fits into this picture. We know that this 
committee and Congress have shown an interest in ensuring that 
the public dollars used to finance mass transportation systems 
result in a cleaner, safer, reliable and timely service to all 
of its customers, and I look forward to working with this 
committee to ensure that the Federal resources provided achieve 
the intended benefits.
    Thank you.
    [The prepared statement of Ms. Fernandez follows:]

    [GRAPHIC] [TIFF OMITTED] T5013.007
    
    [GRAPHIC] [TIFF OMITTED] T5013.008
    
    [GRAPHIC] [TIFF OMITTED] T5013.009
    
    [GRAPHIC] [TIFF OMITTED] T5013.010
    
    [GRAPHIC] [TIFF OMITTED] T5013.011
    
    [GRAPHIC] [TIFF OMITTED] T5013.012
    
    [GRAPHIC] [TIFF OMITTED] T5013.013
    
    [GRAPHIC] [TIFF OMITTED] T5013.014
    
    [GRAPHIC] [TIFF OMITTED] T5013.015
    
    [GRAPHIC] [TIFF OMITTED] T5013.016
    
    [GRAPHIC] [TIFF OMITTED] T5013.017
    
    Ms. Norton [presiding]. Thank you, Ms. Fernandez.
    Mr. Tober.
    Mr. Tober. Thank you, Madam Congresswoman. Good afternoon, 
Madam chairman and the members of the subcommittee. The 
American Public Transportation Association appreciates the 
opportunity to testify on the challenges facing the Washington 
Metropolitan Area Transit Authority and other public 
transportation systems. My name is Ron Tober. I am chair and 
chief executive officer of the Charlotte Area Transit System, 
and I have worked for a number of other transit agencies during 
my 31-year career.
    The detailed written statement has been submitted by APTA 
for the record and I will briefly cover its main points for you 
here today. Before discussing WMATA, let me talk about transit 
generally and the major challenges that we face. Quite simply, 
more and more people are choosing to use public transportation. 
We closed the millennium by breaking the 9 billion passenger 
mark for the first time in 40 years. Over the last 4 years 
transit ridership in the United States has grown by 15 percent, 
and public transportation generates a real return on the 
Federal, State and local investment. In addition to the 300,000 
people employed directly by the $26 billion a year public 
transportation industry, thousands of others are employed in 
the business sector that depend upon transit investment for 
their livelihood.
    Transit removes vehicles from traffic, saving time for both 
transit and highway users. This helps increase productivity and 
stimulates the economy. Traffic congestion has reached epidemic 
proportions, but as bad as it is, imagine what it would be like 
without public transportation. Regions like Washington, DC, 
would require nearly 300,000 more cars on their roadways if 
transit was not in operation in this area.
    Transportation experts, however, agree that our capital 
investments have not kept pace with the annual $16 billion in 
transit capital needs that are present in this country. In 
order to provide alternatives to traffic congestion, it is 
critical to invest in all forms of surface transportation, 
including public transportation.
    Let me now turn to WMATA, which is an active APTA member 
organization. The challenges faced by WMATA are common to those 
faced by transit agencies in most large metropolitan areas. 
Like every transit agency, WMATA must raise State and locality 
funding to match Federal capital funds and pay for operating 
costs that far exceed annual capital costs. All transit 
agencies struggle to balance the need to fund capital costs, 
including both capacity expansion and asset maintenance, 
against the need to fund operating costs that cannot be 
deferred or avoided.
    Another set of challenges involve the changing demographics 
and the need to provide service to employment centers that are 
more centrally located. Urban sprawl requires more route miles 
of public transportation service and the relocation of 
businesses and suburban communities has spawned suburb to 
suburb commuting patterns that are harder for transit to serve. 
This--I'm repeating myself, aren't I? I beg your pardon, Madam 
Chairman, I've lost my place.
    Ms. Norton. It's all right.
    Mr. Tober. Regarding the challenges that are unique to the 
Washington area, WMATA operates a combined bus and rail system 
in a multi-State region which requires the agency to seek State 
and local funding from multiple jurisdictions. In terms of 
revenue raised at the State and local level, which is the 
principal funding source for transit operating costs, WMATA is 
unusual in that it derives very little of its funding from 
dedicated revenue sources.
    Of the 14 transit systems in major metropolitan areas that 
operate heavy rail services, WMATA is second to last in 
dedicated funding, with only Boston's transit system receiving 
less. WMATA receives less than 5 percent of its State and local 
operating aid from dedicated sources. In contrast, New York 
City Transit derives 80 percent of its State and local funding 
from dedicated sources. In Cleveland nearly 97 percent of State 
and local funding, or $148 million, is from dedicated sources.
    WMATA compares favorably to transit agencies nationally in 
revenue that it derives from fares. While the national average 
is 41.6 percent of operating costs paid by fares, WMATA's fare 
box recovery ratio is 51.4 percent, nearly 10 percent higher 
than the national average. WMATA is responding to the 
challenges that it has with a wide range of innovative 
practices, including operating later night service, innovative 
labor contracting, making Metrobus more competitive, and a fare 
simplification initiative, improving integration of its bus and 
rail systems with other regional systems.
    Transit agencies are subject to a host of performance and 
oversight measures. The FTA, as you may know, conducts tri-
annual reviews of every large transit agency to measure 
compliance with Federal requirements. It requires transit 
operators to report a wide variety of information to the 
national transit data base, and it enforces numerous 
procurement standards.
    APTA has a number of programs to assist its members, 
including rail and bus safety management programs, a peer 
review service and a host of technical services.
    Finally, every agency must compete for customers and 
measures itself by the ability to attract and retain riders. 
Success in doing this is greatly affected by the quality of the 
service provided, including reliability, cleanliness, security, 
convenience and other factors.
    Public transportation providers are working to address a 
variety of emerging trends that affect how they serve their 
customers. Traffic congestion, the cost of motor fuels, clean 
air mandates are all contributing to increasing demand for 
public transportation service.
    At the same time the demand is rising, transit 
infrastructure is aging. Despite major increases in TEA-21 for 
rail modernization funding, aging rail systems struggle to add 
modern safety features and maintain their systems in a good 
state of repair. There is not enough Federal investment for 
urban communities who want to build new rail systems or for 
rural systems who want public transit service for the first 
time. Requests in the appropriations process for bus and rail 
investment far outstrip available funding.
    Madam chairman, before I conclude I'd like to make one 
additional comment. As you can see from my background, I have 
worked at several transit agencies that have struggled to 
maintain aging rail systems. WMATA finds itself very much in 
that same situation now, and I see what happens when you have a 
situation like that if you do not maintain those systems 
properly.
    We've made enormous progress in this country and spent a 
lot of money, a very good amount of money on public transit. 
While it's not an inexpensive proposition, I would be remiss if 
I didn't urge the members of this committee to support efforts 
to address the public's demand for more transit service and 
proper maintenance of our existing systems.
    Again, thank you for this opportunity to testify before the 
subcommittee, and thank you and the other witnesses for 
allowing me to go out of order.
    [The prepared statement of Mr. Tober follows:]

    [GRAPHIC] [TIFF OMITTED] T5013.018
    
    [GRAPHIC] [TIFF OMITTED] T5013.019
    
    [GRAPHIC] [TIFF OMITTED] T5013.020
    
    [GRAPHIC] [TIFF OMITTED] T5013.021
    
    [GRAPHIC] [TIFF OMITTED] T5013.022
    
    [GRAPHIC] [TIFF OMITTED] T5013.023
    
    [GRAPHIC] [TIFF OMITTED] T5013.024
    
    [GRAPHIC] [TIFF OMITTED] T5013.025
    
    [GRAPHIC] [TIFF OMITTED] T5013.026
    
    [GRAPHIC] [TIFF OMITTED] T5013.027
    
    [GRAPHIC] [TIFF OMITTED] T5013.028
    
    Ms. Norton. Thank you very much, Mr. Tober. We appreciate 
you being here.
    Ms. Mack.
    Ms. Mack. Thank you. Thank you, Ms. Norton. With me today 
are the Honorable Decatur Trotter, Prince Georges County, MD, 
the first vice chairman of the Board, and the Honorable 
Christopher Zimmerman of Arlington, VA, the second vice 
chairman. They have already been introduced to you. On behalf 
of the Board I'd like to thank you for the opportunity to 
appear before the committee today to talk about our transit 
system.
    The unique Federal-regional partnership which created and 
supports the Washington Metropolitan Area Transit Authority has 
endured for nearly half a century, and together we have created 
the finest transit system in the Nation, providing quality 
transit service for the National Capital Region, Federal 
employees, tourists and visitors from all over the country and 
the world.
    The WMATA compact enabling legislation specifies how Board 
members are appointed, how the Authority is financed, and how 
we procure goods and services. WMATA's 12 Board members 
represent those jurisdictions that finally participate in 
funding Metro. The compact also mandates consensus in that all 
actions of the Board require an affirmative vote from the 
District of Columbia, Maryland and Virginia, the compact 
signatories. Jurisdictions covered under the WMATA compact are 
the District of Columbia, Montgomery and Prince Georges County, 
MD, Fairfax County, Arlington, Alexandria, Fairfax City, Falls 
Church and Loudoun County, VA.
    Our efforts are a case study in making regionalism work. In 
January 2001 the last segment of the original 103-mile rail 
system will open from Anacostia to Branch Avenue. In March we 
will observe the 25th anniversary of Metrorail. It is a time 
for celebration by those in the Congress, the Federal 
Government and the region who have worked so hard to bring us 
to this point.
    Transit ridership is at an all time high and customer 
demand continues to grow. Each weekday 18 percent of total work 
trips are made on transit and 40 percent of total work trips to 
the inner core are made on transit. With over 340,000 Federal 
employees located in this area, 36 percent of our rail 
customers are Federal workers. In addition, Metro serves many 
of the region's 21 million visitors each year and large numbers 
of people attending special events in the Nation's capital. No 
other transit system in the country is called upon to regularly 
handle such events.
    In meeting the challenges of increasing ridership and a 
maturing system, the Board and staff are doing everything 
within our power to ensure that our riders have a safe, 
efficient and affordable transit system. Over the years the 
Board has engaged in active oversight of the Authority. In 
addition to our policymaking role, the Board conducts detailed 
performance reviews, monitors financial statements, ridership 
trends, operations reliability, and customer feedback, and we 
direct changes where indicated.
    We have also emphasized fiscal prudence and have 
implemented programs to assure that budget growth is reasonably 
contained. The Board's Budget Committee annually conducts 
detailed budget proceedings, which include the establishment of 
budget guidance for the general manager, review and comment by 
participating jurisdictions and the chief administrative 
officers of the region. Before the budget is approved by the 
Board it must be concurred in by all member jurisdictions.
    These authorities are also subject to oversight by a number 
of outside agencies, including the Federal Transit 
Administration, the National Transportation Safety Board and 
the Tri-State Oversight Committee.
    I would just like to take a few minutes to focus on some of 
our funding challenges. Chart 1 shows that approximately 54 
percent of WMATA's 2001 operating budget will be covered by 
fares paid from our customers. This reflects a 69 percent cost 
recovery on the rail system, the second best in the country. In 
some months rail recovery is in the high 70's and for the month 
of July this year it was 81 percent, a record for WMATA. These 
recovery rates have steadily increased despite the fact that we 
have not had a fare increase in 5 years. We can also say that 
we will not have a fare increase in 2002. Approximately 40 
percent of the 2001 budget will be paid for by $366 million in 
subsidies from the District and the Maryland and Virginia 
participating jurisdictions.
    Chart 2 shows that of the $9.4 billion cost of the 103-mile 
Metrorail system, approximately 67 percent was funded by 
Federal appropriations and the remainder was funded by State 
and local jurisdictions. We are proud that the last 13\1/2\ 
miles of the construction program were completed ahead of 
schedule and under budget.
    The last chart, chart 3 shows our 2001 infrastructure 
renewal program, or capital improvements program, of $170 
million, which is needed to purchase and rehabilitate rail cars 
and buses and to refurbish facilities. Approximately 76 percent 
of WMATA's infrastructure funding comes from TEA-21, with the 
remainder from State and local sources. Annual funding levels 
of $445 million are required to maintain adequate rolling stock 
and to refurbish our physical plant. Of this amount, $180 
million is currently unfunded. TEA-21 expires in fiscal year 
2003, and we hope that Federal funding will increase when the 
bill is reauthorized.
    Adequate Federal funding is needed to help sustain the 
Metro system. At the same time it is imperative that the region 
step up to the task and continue to contribute its share of 
Metro's infrastructure renewal cost.
    Finally, the Federal Government and the region have created 
the finest transit system in the Nation. But we find ourselves 
at the crossroads that other older systems have experienced. We 
must now garner the support needed to protect our enormous 
investment. We cannot stand by and allow our system to decline 
to a point where it cannot meet the demands placed upon it, as 
has happened in cities such as New York, Philadelphia and 
Boston. As we look to the future, we must be prepared for the 
dynamic changes that are occurring in our region.
    In 1999, the Board adopted an ambitious 25-year service 
expansion plan with a goal of doubling transit ridership. We 
are now working with the region and the Federal Government on 
our first expansion beyond the 103-mile system, including a new 
station at New York Avenue in the District and extension along 
the Dulles Corridor and to Largo Town Center. We must all work 
together to look for ways to meet the funding challenges 
presented by our need to preserve and protect the magnificent 
system and to expand both the rail and the bus systems to serve 
the demands of this growing region.
    On behalf of the WMATA Board, I commit to you that we will 
continue the close partnership with the region and the Federal 
Government to operate a transit system worthy of the Nation's 
capital. Thank you very much.
    [The prepared statement of Ms. Mack follows:]

    [GRAPHIC] [TIFF OMITTED] T5013.029
    
    [GRAPHIC] [TIFF OMITTED] T5013.030
    
    [GRAPHIC] [TIFF OMITTED] T5013.031
    
    [GRAPHIC] [TIFF OMITTED] T5013.032
    
    [GRAPHIC] [TIFF OMITTED] T5013.033
    
    [GRAPHIC] [TIFF OMITTED] T5013.034
    
    [GRAPHIC] [TIFF OMITTED] T5013.035
    
    [GRAPHIC] [TIFF OMITTED] T5013.036
    
    [GRAPHIC] [TIFF OMITTED] T5013.037
    
    [GRAPHIC] [TIFF OMITTED] T5013.038
    
    [GRAPHIC] [TIFF OMITTED] T5013.039
    
    [GRAPHIC] [TIFF OMITTED] T5013.040
    
    [GRAPHIC] [TIFF OMITTED] T5013.041
    
    [GRAPHIC] [TIFF OMITTED] T5013.042
    
    [GRAPHIC] [TIFF OMITTED] T5013.043
    
    [GRAPHIC] [TIFF OMITTED] T5013.044
    
    [GRAPHIC] [TIFF OMITTED] T5013.045
    
    [GRAPHIC] [TIFF OMITTED] T5013.046
    
    [GRAPHIC] [TIFF OMITTED] T5013.047
    
    [GRAPHIC] [TIFF OMITTED] T5013.048
    
    Mr. Davis [presiding]. Thank you very much.
    Mr. White.
    Mr. White. Good afternoon, Mr. Chairman and members of the 
subcommittee. My name is Richard White, and I have been the 
general manager of the Washington Metropolitan Area Transit 
Authority since August 1996. I appreciate the opportunity to 
discuss with you the current state of the Metro system, our 
many successes and some of our most significant challenges. I 
am submitting, Mr. Chairman, my testimony for the record and 
would like to use my time to try and work off of----
    Mr. Davis. Your whole testimony and all of yours is in the 
record. So thank you.
    Mr. White. First, just to give you some information on the 
size of our operation, the metropolitan area that we serve is 
4\1/2\ million and it's about the seventh largest area in the 
United States. Metrorail system carries 163 million trips. 
That's the second largest, as we've already heard. Our bus 
system carries 138 million trips per year. That's the sixth 
largest. And our total system carries 301 million trips per 
year. That's the fourth largest in the United States.
    The size of our work force is over 9,300 positions, about 
the third largest. Our operating budget is $728.5 million, the 
sixth largest. The percent of people who use our services to 
the urban core on a daily basis for commute purposes is 40 
percent and those who use it for regional trips during the work 
period is 18 percent. That makes us the second largest.
    The message, Mr. Chairman and members of the committee, is 
the transit utilization is disproportionately greater in this 
region than in most other areas of the country.
    Chart No. 2 tells you about the age of the Metrorail 
system. Many people still think of the system as a young 
system. Its visual condition literally belies its true age. 
This chart shows you the various segments of our system and the 
age. Those in red are between 17 and 25 years of age. As you 
can see, that's 45 percent of our system. In blue that's 
between 9 and 16 years, and that's 33 percent of our system. 
And less than 8 years is 22 miles, or only 22 percent of our 
system.
    Next year, specifically March 29, 2001, we celebrate the 
25th year of the Metrorail operation and we are now beginning 
to experience the effects of an aging rail system.
    On chart 3, the Metrobus system was established in 1973 as 
a result of WMATA's purchase of four private bus companies who 
were failing in the region. Some of the facilities used today 
were literally built in the early 1900's and were actually used 
as streetcar barns. The average age of our fleet is 7.8 years, 
which is an accomplishment for us in that it was over 10 years 
just 2 to 3 years ago because of the ages of many of our 
facilities, which go back as early as 1906.
    Recently our ridership, just to give you an indication of 
what the ridership growth has been on Metrobus and Metrorail 
for the last decade, in 1990 the system was carrying 301 
million trips per year. The local bus and commuter rail system 
carried another 18 million trips, meaning there were 319 
million trips per year carried on transit services in 1990. 10 
years later, interestingly enough, the Metro system is carrying 
about the same number, 301 million. As you can see, there's 
been considerable differences with large growth on the rail 
side and decreasing growth, or actually a steep decline on the 
bus side. On top of the 301 million trips are 44 million trips 
carried by county-based bus systems and the commuter rail 
system. So the region is carrying 345 million trips per year.
    On the bus system, the changes have been related to, I 
would say, four issues. One is as we open rail services our bus 
system literally is converted to a feeder bus system. Also, 
some of the counties have been establishing their own local bus 
services to substitute for some of the Metro services. In the 
mid-1990's we had a devastating effect of fare increases and 
service cuts, which led to a 20 percent reduction on the bus 
system. The news for the last 3 years is up 14 percent, the bus 
system is even up higher, 16 percent. So today we are literally 
carrying 128,000 trips per day more than we did just 3 years 
ago.
    Chart 5 tells you what the effect of this public investment 
in the Metrorail system has been. Each of these arrows 
represents what would be a need for an additional five to six 
lines of high capacity to move the same number of people that 
Metro moves during the peak period. You could see that capacity 
would need to come literally in the 14th Street Bridge 
Corridor, Roosevelt Bridge Corridor, Wisconsin Connecticut 
Avenue Corridor, Georgia Avenue Corridor, New York Avenue 
Corridor, and Pennsylvania Avenue Corridor. Each peak period we 
carry 200,000 people both in the morning and afternoon rush 
hours; 85,000 of them are carried in the peak 1 hour. Like a 
utility, we are very peak oriented. We run 480 trains during 
the peak period, literally two trains per minute.
    Chart 6 shows our service reliability from the period of 
time January 1999 through August 2000. This is an index that 
measures two things: The percent of our trips that are 
completed within 4 minutes of the scheduled time as well as the 
effect as to whether anybody is off-loaded off of a train and 
is inconvenienced because of a mechanical malfunction. As you 
can see, our performance has generally been within the 97, 98 
percent range, sometimes approaching 99 percent, which means 
that on a daily basis we're carrying approximately 600,000 
people and we are successfully delivering 580,000 to 590,000 of 
them to their destination. However, for the 10,000 to 20,000 
who are delayed, we do recognize that is a serious 
inconvenience to them and we are focused on trying to make 
those numbers even better.
    On chart 7, this speaks to the infrastructure renewal 
program issues that we have, our capital refinancing issues. 
These numbers in our program were developed on a very 
comprehensive needs assessment that we had conducted a couple 
of years ago. I would say that we really did our homework on 
trying to understand what our funding needs were for capital 
reinvestment, and over 25 years this shows a need to invest 
$9.8 billion just to repair and replace our assets. It has 
nothing to do with providing service improvements or growth 
issues. This is necessary to protect what has been a $10 
billion public investment in our regional rail system, which if 
we were building it today would cost $22 billion to construct. 
Presently this is approximately 88 percent funded, as you may 
hear in testimony later, in the regional planning process. That 
is a large issue that we are dealing with.
    As you can see, we are today in the $170, $190 million 
range of annual funding. We are growing to $265 million but 
need to grow to $445 million, and the green space of the chart 
shows you that $180 million per year funding level that we are 
seeing ourselves being short on.
    Two other arrows to point for you on this. One is the 
expiration of funding agreements with our local funding 
partners for which that is the only actual funding commitments 
that we have in place for 2003, and also pretty much around the 
same timeframe the expiration of the TEA-21 transportation 
reauthorization bill, the importance of that, that 
reauthorization bill to perhaps help us address some of our 
issues.
    If I could finish with the last chart, Mr. Chairman, to 
kind of just succinctly describe what we consider to be our key 
management challenges. These are explained in considerable 
detail in my testimony. The first challenge of course is to 
provide our basic mission of providing safe and reliable 
service, which is growing more challenging in the face of 
growing pains where we're serving record demand, operating at 
near capacity and aging pains where we're contending with an 
aging infrastructure. We have clearly had two or three wakeup 
calls that have been well chronicled: In April 1999 during the 
Cherry Blossom Festival, April 20th, of our fire incident and 
the July 19th Red Line incident that I'm prepared to talk to 
you about a little bit later and is included in my testimony.
    Second challenge is the one that we've been talking about 
in terms of securing sufficient funding to adequately 
rehabilitate and replace WMATA's system infrastructure. I 
think, as has been said, we are literally now at the crossroads 
as to whether we're going to allow ourselves to fall further 
behind in disrepair or meet the challenges that we need to keep 
our infrastructure in the kind of condition that people are 
accustomed to.
    Our third challenge is maintaining the reliability of our 
elevators and escalators. We have the most and deepest in the 
world, and they are suffering the effects of exposure to 
weather. And my testimony explains a number of things that 
we're doing in that arena.
    Our fourth challenge is to ensure that we do have the 
sufficient rolling stock system and facility capacity to 
support our goal of doubling ridership in the next 25 years, 
and that indeed is a serious challenge.
    Our fifth challenge is to meet the growing demands of a 
changing population employment center in this metropolitan 
area. Much of our growth is now occurring in the outer suburbs. 
It is estimated by the year 2025 two-thirds of the trips will 
be suburb-to-suburb trips, and that clearly brings some new 
challenges for us.
    Finally, Mr. Chairman, the last key challenge that I would 
point to is the need that we would have the capacity inside of 
our organization to enhance and ensure that we have that 
capacity to continue to do the job that we do and to meet the 
challenges ahead.
    Thank you, Mr. Chairman, for the opportunity to comment.
    [The prepared statement of Mr. White follows:]

    [GRAPHIC] [TIFF OMITTED] T5013.049
    
    [GRAPHIC] [TIFF OMITTED] T5013.050
    
    [GRAPHIC] [TIFF OMITTED] T5013.051
    
    [GRAPHIC] [TIFF OMITTED] T5013.052
    
    [GRAPHIC] [TIFF OMITTED] T5013.053
    
    [GRAPHIC] [TIFF OMITTED] T5013.054
    
    [GRAPHIC] [TIFF OMITTED] T5013.055
    
    [GRAPHIC] [TIFF OMITTED] T5013.056
    
    [GRAPHIC] [TIFF OMITTED] T5013.057
    
    [GRAPHIC] [TIFF OMITTED] T5013.058
    
    [GRAPHIC] [TIFF OMITTED] T5013.059
    
    [GRAPHIC] [TIFF OMITTED] T5013.060
    
    [GRAPHIC] [TIFF OMITTED] T5013.061
    
    [GRAPHIC] [TIFF OMITTED] T5013.062
    
    [GRAPHIC] [TIFF OMITTED] T5013.063
    
    [GRAPHIC] [TIFF OMITTED] T5013.064
    
    [GRAPHIC] [TIFF OMITTED] T5013.065
    
    [GRAPHIC] [TIFF OMITTED] T5013.066
    
    [GRAPHIC] [TIFF OMITTED] T5013.067
    
    [GRAPHIC] [TIFF OMITTED] T5013.068
    
    [GRAPHIC] [TIFF OMITTED] T5013.069
    
    [GRAPHIC] [TIFF OMITTED] T5013.070
    
    [GRAPHIC] [TIFF OMITTED] T5013.071
    
    [GRAPHIC] [TIFF OMITTED] T5013.072
    
    [GRAPHIC] [TIFF OMITTED] T5013.073
    
    [GRAPHIC] [TIFF OMITTED] T5013.074
    
    [GRAPHIC] [TIFF OMITTED] T5013.075
    
    [GRAPHIC] [TIFF OMITTED] T5013.076
    
    [GRAPHIC] [TIFF OMITTED] T5013.077
    
    [GRAPHIC] [TIFF OMITTED] T5013.078
    
    [GRAPHIC] [TIFF OMITTED] T5013.079
    
    [GRAPHIC] [TIFF OMITTED] T5013.080
    
    [GRAPHIC] [TIFF OMITTED] T5013.081
    
    [GRAPHIC] [TIFF OMITTED] T5013.082
    
    [GRAPHIC] [TIFF OMITTED] T5013.083
    
    [GRAPHIC] [TIFF OMITTED] T5013.084
    
    [GRAPHIC] [TIFF OMITTED] T5013.085
    
    [GRAPHIC] [TIFF OMITTED] T5013.086
    
    [GRAPHIC] [TIFF OMITTED] T5013.087
    
    [GRAPHIC] [TIFF OMITTED] T5013.088
    
    [GRAPHIC] [TIFF OMITTED] T5013.089
    
    [GRAPHIC] [TIFF OMITTED] T5013.090
    
    [GRAPHIC] [TIFF OMITTED] T5013.091
    
    [GRAPHIC] [TIFF OMITTED] T5013.092
    
    [GRAPHIC] [TIFF OMITTED] T5013.093
    
    [GRAPHIC] [TIFF OMITTED] T5013.094
    
    [GRAPHIC] [TIFF OMITTED] T5013.095
    
    [GRAPHIC] [TIFF OMITTED] T5013.096
    
    [GRAPHIC] [TIFF OMITTED] T5013.097
    
    [GRAPHIC] [TIFF OMITTED] T5013.098
    
    [GRAPHIC] [TIFF OMITTED] T5013.099
    
    Mr. Davis. Thank you very much.
    Ms. Dugger.
    Ms. Dugger. Thank you, Mr. Chairman, Congresswoman Norton. 
I'm Dorothy Dugger, deputy general manager of the San Francisco 
Bay Area Rapid Transit District [BART]. I'm pleased to 
participate in today's hearings. I hope in exploring some of 
the issues faced by WMATA and the other systems you've invited 
here today, the subcommittee will hear some of the common 
issues confronting rail transit properties such as ours and 
that those concerns can be further examined in the context of 
the upcoming reauthorization of TEA-21.
    BART operates a 95-mile, 39-station rapid rail transit 
system that serves four counties and 16 cities on both sides of 
San Francisco Bay. The nine-member board of elected directors 
governs the agency and we employ a work force of just under 
3,500 people.
    In recent years we've undergone tremendous growth and 
change. We've just completed the first expansion of the 
original system, adding 24 miles of rail and five stations. 
Construction of an 8.7-mile, four-station extension to serve 
San Francisco International Airport is almost 70 percent 
complete and will add 70,000 trips to our system. We very much 
appreciate our partnership with Congress, which has yielded a 
multi-year new starts funding commitment that will cover about 
half of the cost of that extension.
    Since service to the public began in 1972, BART has been a 
vital part of the Bay Area's transportation network and never 
more so than today. Our region is experiencing a booming 
economy. Record low unemployment and tight housing markets have 
exacerbated the jobs and housing imbalance, resulting in longer 
commutes and ever growing congestion. Transportation 
consistently ranks as a top priority in Bay Area public opinion 
polls, and the newspapers and airwaves are filled with reports 
of growing congestion.
    Against this backdrop more people are riding BART than ever 
before. Average weekday ridership is up to 330,000 trips per 
day, a full 12 percent higher than a year ago, and is growing 
every month. Indeed, we are about 4 years ahead of our 
ridership forecast at this point. In addition, special events 
such as this week's division playoffs in the Bay Area swell our 
ridership on regular occasions. We've just set a new record 
yesterday of 374,900 trips, which exceeded our prior 1-day 
record of 357,000, which occurred notably after the Loma Prieta 
earthquake disabled the Bay Bridge and BART was operating 24-
hour service at that time and was the only link across the Bay.
    To put this ridership in perspective, BART carries about 50 
percent of the peak period, peak direction trans-Bay commute. 
In other words, without BART the Bay Bridge would need an 
additional deck to accommodate the morning commute.
    This extraordinary increase in ridership is very welcome 
and contributes to our continued financial health, but it is 
straining our core system capacity, presenting significant 
challenges for our aging system and placing a premium on the 
reliability and quality of the transportation service we 
deliver.
    In the early 70's we were the first of the new generation 
heavily automated rail systems to be built in the United States 
in about 60 years. Now we are no longer young. We are in our 
28th year of revenue service. Signs of age have begun to show 
on virtually every aspect of our system, affecting reliability, 
maintainability and appearance.
    In order to sustain the reliable and quality service that 
our customers demand and support the growing numbers of riders, 
it is imperative that there be regular ongoing reinvestment in 
our existing physical infrastructure. To ensure that we are 
able to do that, we embarked on an initial 10-year, $1.1 
billion renovation program in 1995 under our General Manager's, 
Dick White, at the time, leadership. The cornerstone and 
largest element of that renovation program is the renovation of 
our original fleet of 439 railcars. It will add about 20 years 
to the useful life of that equipment at about half the cost of 
buying new cars. We're also replacing or overhauling 
escalators, elevators, fare gates, ticket vending machines, and 
upgrading train control and computer systems and traction power 
systems. These improvements will help us maintain our schedule, 
mean fewer train delays, more reliable service and more 
comfortable facilities for our customers.
    This is not, however, a one-time 10-year program. This will 
be an ongoing requirement as our system continues to age if we 
are to avoid the experience that Ms. Mack referred to earlier 
that several older properties have faced before us; namely, 
underinvestment, service deterioration, loss of ridership, loss 
of revenue, leading to further service deterioration, and so 
the cycle continues.
    As we are aging, we are also growing, and investment to 
increase the capacity of our core system to support increased 
ridership is also required. To understand these needs we are 
conducting a 30-year system capacity enhancement study to 
identify, quantify and establish priorities for these core 
system improvements. We are looking at systems such as vertical 
circulation in our stations, access parking and other modes, 
maintenance shop capacity, track flexibility, rolling stock, 
and so on.
    Strategic system expansions to serve new corridors in our 
growing region are another critical component of BART's program 
of capital priorities.
    And, finally, in our area seismic safety is a major 
concern. We are looking at the retrofit requirements of our 
system. In addition to investment, however, maintaining service 
quality and reliability on an aging system requires an ever 
greater emphasis on adequate and effective maintenance 
resources and programs, a keen focus on customer service, as 
well as operating recovery strategies to quickly mitigate 
service disruptions when they inevitably do occur.
    Given the density of service, closer headways and more 
crowded trains, when we do have service disruptions, there is 
less recovery time. More trains and thus more people are 
unfortunately ultimately affected.
    To summarize, we face a number of key challenges in 
implementing our program of capital priorities to enable us to 
continue to deliver high quality, reliable, convenient and 
efficient rapid transit service to the growing San Francisco 
Bay Area. System renovation, expanded core system capacity, 
strategic expansions and seismic retrofit are all critical 
capital needs that must be addressed in order to support 
growing levels of service.
    We recognize that achieving our goals requires regular 
ongoing investments. One of the key messages I want to 
emphasize today is the need for a stable, predictable, adequate 
fund source for rail properties that are being squeezed by high 
service levels, increased demand for service and an aging 
physical plant that can't be ignored.
    We are extremely fortunate to receive 75 percent of a one-
half cent sales tax that is permanently dedicated to fund our 
operations. That revenue stream combined with a double A bond 
rating has enabled us to issue bonds to help support the 
capital reinvestment program. However, our needs, as you heard, 
exceed available resources and we welcome the opportunity to 
work in partnership with our colleagues in the industry, with 
our local, regional and State funding agencies and with 
Congress to explore potential funding opportunities to meet 
these needs.
    Thank you very much.
    [The prepared statement of Ms. Dugger follows:]

    [GRAPHIC] [TIFF OMITTED] T5013.100
    
    [GRAPHIC] [TIFF OMITTED] T5013.101
    
    [GRAPHIC] [TIFF OMITTED] T5013.102
    
    [GRAPHIC] [TIFF OMITTED] T5013.103
    
    [GRAPHIC] [TIFF OMITTED] T5013.104
    
    [GRAPHIC] [TIFF OMITTED] T5013.105
    
    [GRAPHIC] [TIFF OMITTED] T5013.106
    
    [GRAPHIC] [TIFF OMITTED] T5013.107
    
    [GRAPHIC] [TIFF OMITTED] T5013.108
    
    [GRAPHIC] [TIFF OMITTED] T5013.109
    
    [GRAPHIC] [TIFF OMITTED] T5013.110
    
    [GRAPHIC] [TIFF OMITTED] T5013.111
    
    [GRAPHIC] [TIFF OMITTED] T5013.112
    
    [GRAPHIC] [TIFF OMITTED] T5013.113
    
    [GRAPHIC] [TIFF OMITTED] T5013.114
    
    [GRAPHIC] [TIFF OMITTED] T5013.115
    
    [GRAPHIC] [TIFF OMITTED] T5013.116
    
    Mr. Davis. Thank you very much.
    Ms. Porter.
    Ms. Porter. Good afternoon, Mr. Chairman, Ms. Norton. My 
name is Kathy Porter. I'm the mayor of Takoma Park and the 
chair of the National Capital Region Transportation Planning 
Board [TPB], at the Metropolitan Washington Council of 
Governments. The TPB is the officially designated metropolitan 
planning organization for the Washington metropolitan region 
and is charged with implementing Federal requirements for 
metropolitan transportation planning. The members of the TPB 
include local effected officials, the transportation agencies 
of D.C., Maryland, and Virginia and WMATA.
    As a long-range planning organization, the TPB is 
especially concerned about the challenges facing Metro, which 
has played a critical role in our regional transportation and 
development plan since the 1960's. As has been noted, the 
Metrorail system today has the second highest ridership levels 
of all metropolitan rail transit systems in the country. Over 
the next 25 years we are relying on the Metrorail corridors to 
absorb an even larger number of trips and to act as the 
backbone of our regional development framework. The Metro 
system plays a crucial role in regional land use policy and 
economic development, issues that extend far beyond the needs 
of riders who depend upon the system every day.
    In the Washington Metropolitan Area we are currently facing 
funding challenges that directly affect the future of the Metro 
system. The TPB has become acutely aware of these issues in the 
course of carrying out one of its most important planning 
functions, the development of the region's long-range 
transportation plan. One key Federal requirement of this long-
range plan is that it can only include projects and programs 
for which funding is, quote, reasonably expected to be 
available. This means that no matter how important a new 
transportation project is, it can only be included in the long-
range plan if funding for the project can be identified.
    I should reiterate, as has been mentioned before, that this 
region has no dedicated regional source of transportation 
funding. The revenues for the region's long-range plan come 
from Federal, State and local governments and from transit 
fares. The long-range plan is based on the revenues identified 
by the agencies responsible for these funding sources over the 
25 years of the plan.
    We are currently in the middle of our 3-year update of what 
we call the constrained long-range plan. This update has 
received considerable attention because the funding identified 
is not sufficient to include many of the programs and 
facilities needed to address our growing mobility needs.
    The needs of WMATA have received particular attention 
during this update of the long-range plan. We project that 
$76.8 billion will be available for the projects and programs 
of all modes in the plan over the next 25 years. This is in 
constant year 2000 dollars. According to current estimates, 52 
percent, or $40 billion, of the total revenues for the plan 
will be designated for public transit, including local buses as 
well as WMATA. Of this $40 billion, $27.8 billion, or 36 
percent, of total plan revenues would be used for WMATA 
operations and preservation. On the revenue side this is 
partially offset by the $11.5 billion, or 15 percent, that 
comes from WMATA fares.
    Nevertheless, the funding allocated in the long-range plan 
update for rehabilitation and preservation of the Metrorail and 
Metrobus system is less than is requested by the WMATA Board of 
Directors. Further, the funding agencies could not identify the 
resources requested by WMATA to accommodate ridership growth 
over the next 25 years, funding that is needed to purchase 
rolling stock and to improve stations and other facilities. In 
carrying out the financial analysis that we are required to do 
under this planning process, we determined that the available 
funding is not sufficient to meet these WMATA requests without 
seriously undermining the region's ability to maintain and 
upgrade other critical elements of the transportation system.
    In addition to developing a long-range transportation plan, 
the TPB is also responsible for certifying that the plan meets 
air quality requirements. In doing our analysis, we had to 
consider how WMATA's unfunded needs would affect air quality, 
assuming that a significant number of additional riders who 
would otherwise be using the system would not be accommodated 
after the year 2005 because of the lack of funding for system 
improvements. Using this assumption, we found that more than 
100,000 additional daily trips would have to be absorbed by the 
highway system in the year 2025, causing an increase in 
emissions.
    Work trips on transit would be particularly affected by 
this constraint. If Metro ridership growth were constrained 
because of funding issues, transit work trips would increase by 
20 percent by 2025, compared to a 37 percent increase if full 
funding to accommodate ridership growth were available. 
Furthermore, our analysis assumed that fares on Metro would 
rise with the Consumer Price Index after 2002. If fare 
increases were held below the CPI, ridership could be expected 
to increase even more substantially, which would create even 
greater unfunded needs.
    The funding shortfalls identified in the long-range 
planning process have been sobering for members of the TPB who 
are deeply concerned about growing traffic congestion and its 
effects on our regional economy and quality of life. Only 2 
years ago the TPB adopted a bold policy framework, the 
transportation vision, that was intended to guide our 
transportation investments into the next century. One of the 
goals of the vision is ``adequate maintenance, preservation, 
rehabilitation, and replacement of existing infrastructure.'' 
The inadequacy of funding in the long-range plan, which applies 
to highway maintenance as well as transit, undermines our 
ability to meet the goals of this vision.
    At our October 18th meeting, the TPB will consider final 
approval of the long-range plan update along with a resolution 
expressing the TPB's serious concerns regarding the region's 
inability to meet the goals of our vision due to the shortfall 
in funding. In addition, in order to begin to address this 
funding shortfall the TPB is planning a series of intensive 
meetings and briefings with key stakeholders. Staff from the 
TPB and COG have already begun meeting with State 
transportation agencies and WMATA to discuss the transit 
agency's funding needs. On November 30, we will host a 
structured briefing and discussion for key State level 
officials on regional transportation needs for transit, 
highways and other travel modes, with the goal of building 
consensus on actions needed to address these needs.
    I have no illusions that the funding challenges we face can 
be resolved quickly or easily, but we must begin to take steps 
now to protect the investments we have made in our 
transportation system, and particularly in Metro. I believe our 
intensive effort this fall working with the key officials from 
the State funding agencies and WMATA will ultimately pay off in 
a renewed effort to address the challenges we all face.
    In closing, I also want to mention that the TPB's vision 
contained another ambitious goal that is very germane to our 
discussion today. In the vision, the TPB called for ``an 
enhanced funding mechanism for regional and local 
transportation system priorities that cannot be implemented 
with current and forecasted Federal, State and local funding.'' 
The important point here is that a mechanism or mechanisms need 
to be established to create a fiscally sustainable 
transportation system so that we are not simply moving from 
this year's funding challenge to a new one next year. 
Throughout the coming months I hope that we can engage in an 
open discussion with citizens and with our elected leaders, 
including Members of Congress, that will help us move toward a 
more permanent funding solution.
    Thank you for this opportunity to testify.
    [The prepared statement of Ms. Porter follows:]

    [GRAPHIC] [TIFF OMITTED] T5013.117
    
    [GRAPHIC] [TIFF OMITTED] T5013.118
    
    [GRAPHIC] [TIFF OMITTED] T5013.119
    
    [GRAPHIC] [TIFF OMITTED] T5013.120
    
    [GRAPHIC] [TIFF OMITTED] T5013.121
    
    [GRAPHIC] [TIFF OMITTED] T5013.122
    
    [GRAPHIC] [TIFF OMITTED] T5013.123
    
    Mr. Davis. Thank you very much.
    Mr. Carvalho.
    Mr. Carvalho. Chairman Davis and members of the 
subcommittee, my name is Michael Carvalho, and I both work and 
live in the District of Columbia. I'm also a member of the 
Greater Washington Board of Trade and serve on the Board's 
Transportation and Environment Committee.
    I'd like to preface my remarks today by taking this 
opportunity to thank Chairman Davis for his outstanding 
leadership in resolving the budget issues associated with the 
new Wilson Bridge project, which will go a long way in reducing 
congestion in our region.
    Founded in 1889, the Board has a long history of working to 
improve the quality of life in this area. We have a 
longstanding support for transit and in 1912 first contemplated 
the idea of a transit system for the District of Columbia. This 
led to a series of steps in advocating for transit, with a 
critical milestone being our 1966 testimony here on Capitol 
Hill supporting the creation of WMATA.
    Throughout Metro's two and a half decades of providing 
quality public transportation to the citizens of our region, 
the Board of Trade has been a tireless advocate in promoting 
Metro's benefits as part of a balanced transportation system. 
We have helped fight for additional funding and for funding 
targeted expansion of service. We remain a strong advocate of 
transit-oriented development, both because it improves system 
efficiency and leverages Metro's role as a catalyst for job 
growth and economic development.
    The most recent example of this is the New York Avenue 
Corridor in the District of Columbia that will soon benefit 
from a new Metro station. In addition, Metro is a key 
ingredient in our working to revitalize the District of 
Columbia and in putting brownfield sites back into productive 
use.
    Today, less than 6 months shy of Metro's 25th anniversary, 
it is still the best system in the world. Our region has the 
second highest transit ridership nationally and Metro has 
enjoyed double digit ridership increases on both its bus and 
rail systems. It has set a number of ridership records this 
year alone, carrying in excess of 600,000 passengers on a 
weekday on Metrorail numerous times. Indeed, I personally rely 
on Metro for my commuting needs on a daily basis, having sold 
my car 2 years ago.
    As you and I know, however, Metro service has recently 
encountered some challenges. The system has suffered through a 
spate of delays brought on by malfunctions, smoke and fire. 
Metro mechanics tried, but could not keep pace with escalator 
and elevator repairs. In short, while we have an outstanding 
system, it's a system that is showing its age.
    Therefore, the first institutional focus of Metro, as 
referenced in the 1997 Board of Trade transportation study, 
must be on maintaining the existing system. ``Fix it first'' 
must be the mantra of WMATA. Failure to do so threatens an 
already stressed transportation network and compromises the 
region's high quality of life. To maintain what we have, Metro 
will need funds over the next 25 years to service the buses, 
railcars, systems and structures that are in place today. While 
most of these resources are identified, there remains a funding 
gap that the District of Columbia, Maryland, and Virginia, 
along with the Federal Government, must find ways to close.
    Last, while investment in the Metro system is necessary to 
serve future riders, new construction must be balanced and made 
within a broader framework of other regional transportation 
needs, including new bridges and roads. Our region still lacks 
the new Potomac River bridges and parkways required to link 
suburban activity centers and to address today's predominant 
suburb-to-suburb trips as well as the daily trips that Metro 
cannot carry. Additionally, these new corridors will serve 
future suburb-to-suburb Metrorail or Metrobus service.
    In summary, we must maintain our existing system at its 
highest possible level of service. Future expenditures on 
transit roads and bridges as our limited funding allows must 
balance every new investment decision through filters of cost 
effectiveness, the ability to connect high density activity 
areas and its impact on the greatest number of the region's 
residents.
    Metro is a shining star of our region, but it needs a 
serious infusion of investment for the challenges ahead. I 
respectfully urge to you support Metro's maintenance funding 
request so it can continue to remain the world class system we 
are so proud to call our own.
    Thank you for this opportunity to comment.
    [The prepared statement of Mr. Carvalho follows:]

    [GRAPHIC] [TIFF OMITTED] T5013.124
    
    [GRAPHIC] [TIFF OMITTED] T5013.125
    
    [GRAPHIC] [TIFF OMITTED] T5013.126
    
    [GRAPHIC] [TIFF OMITTED] T5013.127
    
    Mr. Davis. Well, thank you very much.
    Mr. Davis. We're going to proceed to questions. I think I'm 
going to start. Let me start by asking Mr. White. You are 
probably best equipped to answer this. What's accounted for the 
increase in bus service, the number of bus ridership in Metro? 
For a while it was going down as more and more local 
jurisdictions assumed bus service for various reasons. Now I 
see it's going back up fairly significantly.
    Mr. White. I would say the most significant factor was a 
rather bold action our Board took not too long ago to approve a 
fare simplification and integration strategy, which essentially 
we had one of the most complex bus fare systems in the United 
States, multiple zones. You really had to know an awful lot to 
know what the right fare was to pay. We basically simplified 
that down to one standard fare, for all intents and purposes. 
We used to charge to transfer, which is a great disincentive. 
We used to charge a full fare to transfer from bus and rail and 
we reduced that. So we provided some very significant financial 
incentives for people to use the bus system and for it to be 
easy for people to use the bus system, No. 1.
    No. 2, we've replaced an awful lot of old buses. We had one 
of the oldest bus fleets in the Nation. We've been spending a 
lot of money replacing our bus fleet and of course people are 
going to find that more attractive. Recently we've been funding 
that. We have been having enough operating money to start 
growing our services. One of the things you need to do is to be 
able to provide enough service and a service frequency for it 
be convenient for people.
    So, Mr. Chairman, I would say that those are possibly three 
factors that have contributed to that.
    Mr. Davis. Are local governments continuing--the local 
governments are not continuing to go out and run their own 
systems then in increasing numbers? That's stopped at this 
point and stabilized?
    Mr. White. Yes, that trend had been quite acute for a 
period of time. In 1975 Metrobus ran about 95 percent of the 
service in the region and recently it's been about 75 percent. 
Indeed, I think that I had been a reflection of where people 
saw our service quality as being quite good. They were critical 
of the cost of delivering that service and made steps 
accordingly.
    Recently, in our last labor contract we made significant 
improvements in our cost structure. We've actually competed in 
bids for service even against the private sector and have won 
several of those to provide service as a contract provider. So 
I think that has begun to have people look at us with a little 
bit different eye and with the knowledge that we are more cost 
competitive than we were in the past.
    Mr. Davis. You dominate the bus service in the District? 
How does it rate the District, Maryland and Virginia?
    Mr. White. In the District, we provide all of the bus 
service. The District does not run any service itself except of 
course for special education. We're actually the school bus 
system for the District of Columbia as well.
    Fairfax, VA, has its own fairly large bus system. Arlington 
has just recently started one. Alexandria has one. Fairfax City 
has one. They are all fairly small. In Montgomery County, the 
largest operator in the region is the Ride-on service in 
Montgomery County, and Prince Georges County has a service 
called the Bus.
    Mr. Davis. But even in those jurisdictions, it's a 
combination of both the local and the Metro service?
    Mr. White. Yes. All of the jurisdictions utilize the Metro 
for some large piece of their service, yes.
    Mr. Davis. I want to briefly address the addition of new 
stations to the Metrorail system. That must place increased 
pressure on the capacity of the station, such as Metro Center, 
which is not only used for making Metrorail connections, but it 
also serves as the final destination for commuters who work 
downtown. How does WMATA plan to alleviate that pressure? It's 
a tough enough financial pressure getting new stakes without 
the other priorities you have for repairing the Metro Center. 
What is it going to do to that?
    Mr. White. Mr. Chairman, that's an excellent question and 
one we are just now beginning to try and find the answer to. We 
are engaged in a very comprehensive review called the core 
capacity review. It's probably one of the most ambitious ones 
in the country, which is to examine very much the issue that 
you speak of. If our goal is to double ridership in the next 25 
years, and if we know that goal is largely going to come 60 
percent through a normal service growth and 40 percent from 
capacity expansion, that means that there's going to be 
enormous pressure put on the core of our system to support that 
ridership growth.
    One-third of our rail customers transfer when they take 
their trips, so a number of people are moving from one line to 
the other. Our core capacity study is going to examine the 
answer to the question, what happens to that core system when 
the ridership doubles? What happens to our ability to have 
power distribution systems that can move our trains, signaling 
systems, vertical movement of people in and out of stations, 
and all the myriad of things?
    So I can't answer your question as I sit here today. Twelve 
months from now, next September, is the schedule when we have 
all the answers to these questions. We've assembled a very 
impressive group of people who have tremendous knowledge and 
experience around the country and the world dealing with these 
issues. And I think in about a year from now, we'll know the 
kinds of things we need to do to our system to have the ability 
to support that kind of ridership growth.
    Mr. Davis. Great. Thanks. Anybody else want to add anything 
to that? All right. I know that there has been a significant 
delay in scheduling the numerous escalator repairs. What kind 
of plan have you proposed for eliminating the backlog of 
escalator repairs? When will this be implemented? Also, are 
there preventative measures that WMATA can take now to 
alleviate the necessity for a high volume number of repairs in 
the future?
    Mr. White. We have 205 elevators and 557 escalators. It's 
the largest number of any transit property in North America and 
perhaps in the world. To give you an example, the one who is 
second to us is Los Angeles, 307 versus our combined 762. 
Another factor is that the vast majority of all of our 
escalators are exposed to the weather; 119 are unprotected. And 
the second one in the country is Miami with 76. And places like 
New York, Los Angeles, Chicago, Atlanta and others have zero.
    So in addition to the numbers that we have, they are the 
deepest in the world also. Our system, as magnificent as it is, 
was built quite deep because of geological considerations and 
other considerations, and that has presented us with some 
challenges because of the depth of the escalators.
    What we are doing about it, Mr. Chairman, is we have a 
multi-faceted program. We're under contract now to spend over 
the next 6 years at least $120 million. We're going to 
rehabilitate one-third of our worst performing escalators, 170 
of those escalators.
    Now it will take us 6 years to complete that task. What we 
recently did at the Board's urging was to come up with a plan 
to shorten that to the maximum extent possible, and we found an 
opportunity for some number of those escalators to reduce what 
normally takes 16 weeks to rehabilitate a single escalator and 
move that down to 12 weeks.
    So that was an improvement there. The second thing we're 
doing is going to be putting canopies over our exposed 
escalators to protect them from the debilitating effects of the 
weather, particularly water runoff. And in addition, we've been 
increasing both our own internal capabilities to maintain the 
escalators by doing things such as creating our own 
apprenticeship programs to make sure we have people to do this 
work, but in the interim we are contracting out more of that 
work. We're right now using two firms who are maintaining those 
170 escalators that they are rehabilitating, so we get more 
resources out there, more maintenance resources than we have 
today.
    So that's essentially the full range of things that we're 
doing to try to address this problem.
    Mr. Davis. Thanks. On August 10th you instituted the 60-day 
action plan that was going to improve rail services and 
communication with rail customers. What were the specific goals 
for improving service within that 60-day period? To what extent 
did you achieve those goals? And what else do have you to do?
    Mr. White. Mr. Chairman, this was a program that was 
designed, in its most basic way, to greatly improve our ability 
to communicate with our customers. And in your opening 
statement, you of course referred to a couple of incidents that 
we had significant difficulty, most especially that July 
incident on the Red Line. And we have found that we have not 
been able to perform the way we would like, and our focus has 
not been where it should be on making sure that our customers 
are fully informed when we do have these kinds of service 
delays.
    So we are now in the process of retraining all of our train 
operators, more than 500 of them, and that program will be 
completed by November, with a really new sense of commitment to 
communications, particularly when we are experiencing some 
passenger delays. We've literally adopted a policy called ``we 
stop, we tell,'' where the customer, if they're on the train, 
they're going to hear something from a train operator if 
they're caught in a delay.
    Also, our central control office who controls all of our 
movement centrally, train movements centrally, is also more 
focused on making passenger announcements to stations and also 
to remind the operator have you communicated with the customer 
if they're experiencing a delay?
    So those are the major things that we're doing. There are a 
number of things that are part of our call-to-action program. 
We are reporting to our operations committee of our board next 
Thursday, as a matter of fact, with our assessment of how we've 
done in that 60-day period. We've also conducted some focus 
group sessions with some of our customers to get their own 
input. We're going to be reporting back on that to our 
operations committee next week. I think, by and large, my own 
personal experience using the system and knowing what I know 
about the customer, the focus feedback, I think, a good number 
of our customers are seeing that we're doing a better job with 
our communications.
    Mr. Davis. I wanted to ask, Ms. Dugger, BART uses a nine-
member board of elected directors. Are they elected directly? 
Do you like run for chairman of BART, for the BART board?
    Ms. Dugger. They're directly elected by the public from 
specific districts in the three counties.
    Mr. Davis. So San Mateo could get a district or the city or 
however it works?
    Ms. Dugger. San Mateo isn't a member of our BART district. 
But that is the idea. There are three counties that form the 
BART district, and some of those are, in some cases, multi-
county seats.
    Mr. Davis. Alameda whatever.
    Ms. Dugger. OK.
    Mr. Davis. My last question, right for this round, I 
address it to you again, Mr. White, and if anyone else has any 
thoughts, as you know we passed our transportation conference 
report today, and aside from the Wilson Bridge, we had $217 
million contingent commitment authority that allows WMATA to 
move ahead with construction of the Dulles line. How will that 
affect WMATA's ability to apply for Federal grant money?
    Mr. White. As you may know, right now we're conducting an 
environmental assessment of this project going through the NEPA 
process. So obviously, we're not in a legal position to do 
anything until such time as we get a record of decision. We're 
expecting that to occur by the spring of 2002. About all those 
appropriate qualifiers this program in this corridor, a very, 
very important corridor to be served, is expected to be served 
with transit investments that phase initially with the bus 
rapid transit system growing to an extension of the rail 
system, the Metrorail system, first through Tysons Corner as 
the second segment, and then finally to Dulles Airport and to 
Loudoun County as a third segment.
    So that's how the project is currently envisioned. Thus 
far, the Congress has appropriated, assuming that this year's 
appropriation is approved by the President, which I'm sure we 
are all confident that it will be, $86 million will have been 
appropriated by the Federal Government plus the contingent 
commitment that you refer to will put that Federal commitment 
to over $300 million.
    Right now, the Commonwealth of Virginia, who is the sponsor 
of this project, is projecting that its request will be a 50 
percent Federal share for the project. So if we assume that to 
be the case, that would then generate somewhere around $600 
million for this project at this particular point in time. The 
bus rapid transit piece of that is expected to cost in the 
vicinity, if you accept just general references, approximately 
$250 to $275 million. So clearly, this would be enough to get 
the bus rapid transit system built and enough to perhaps begin 
getting us to Tysons Corner. We would need to have additional 
funds in the next reauthorization bill to complete that rail 
segment, but this certainly moves the project along, and the 
bus rapid transit phase, and begins to get to a critical mass 
on the rail, first phase of the rail extension.
    Mr. Davis. Thank you very much.
    Ms. Norton.
    Ms. Norton. Thank you, Mr. Chairman.
    Mr. White, pleased to see the improved statistics. They may 
be hard for the public to translate. That's why, for example, 
your explanation to the chairman about, ``we stop, we tell,'' 
was very reassuring, since the lack of communication may be 
worse than what may have occurred in a given tunnel or at any 
given time.
    But I'd like to ask a question about the first few weeks 
when there seemed to be a stop and a delay every time we were 
told someone thought there was a little bit of smoke, that--and 
we are told in here, I'd like to hear your rendition here as to 
whether or not this is true, that in response to the fire, that 
there was an overreaction, or a sense if there is a little bit 
of smoke, then the whole works stops, that of course, leads to 
questions about whether or not management is prepared to make 
adjustments and changes as needed as opposed to taking a system 
like this and putting it on hold until you calibrate to the 
point where you know what you want to do. So let me ask a 
question, suppose there's a little bit of smoke today when some 
of these folks go home, how would the system handle a little 
bit of smoke in a tunnel today?
    Mr. White. If I could answer that question, Ms. Norton, by 
taking you through what has admittedly been some changes in our 
procedures as we responded to the April 20th tunnel fire, and 
clearly they have, particularly during the month of June, they 
had an acute effect on some of our service reliability issues. 
Let me also preface it by saying that as we have moved in this 
district, what we have been seeking to accomplish is to find 
the optimum medium between safety considerations and service 
reliability considerations. I would say that in June when we 
made our first procedural change, it was actually June 5th 
where there was a sense that we didn't have procedures that 
were sound enough that would govern how we would respond to a 
set of questions when there were fire and smoke detected. We 
moved to a procedure that was a very, very conservative 
procedure, seeking the high ground on the safety side.
    And that procedure said that whenever there is any sign of 
any kind of fire and smoke detected, and I would also say that 
there is literally almost any number of things that can cause 
that kind of event. And the vast majority of those are just 
extremely minor in nature, such as some debris blowing into the 
tunnel and coming in contact with the third rail, which 
immediately extinguishes itself, brakes that go on and causing 
malfunction, and it's really the vehicle that emits a little 
bit of smoke and sometimes there's a sense that perhaps that's 
a more serious condition.
    So our procedures that any time we saw any fire and smoke, 
we would stop the train. We would notify the appropriate local 
fire department. They would be dispatched and they would then 
clear the scene.
    Well, when that happened we saw a remarkable series of 
serious delays that occurred for 2 weeks and the vast majority 
of those were really related to very minor events. We then saw 
at that point in time that we were probably not where we wanted 
to be with our procedure. We modified it a second time on June 
17, and I would also say that each time we made these changes 
we did it in consultation with the local fire chief to make 
sure we were in proper coordination with them. The second 
procedure recognized that we probably should be capable of 
diagnosing smoke conditions unless it was obvious that there 
was a severe, heavy smoke. The fire department said it was OK 
for us to proceed and to take action on those conditions that 
were smoke related, and those that were fire related we would 
yield to the fire department. In all instances we always 
notified the fire department, even when we're handling the 
situation, so in case it gets out of control and we've 
misdiagnosed it, they're there on the scene and they will not 
be delayed in getting there.
    That second procedural change came close to right-sizing 
us, if we examine the statistics that you were looking at, Ms. 
Norton. That occurred in the middle of the month of June and we 
found that was in the beginning to put us in the direction that 
we needed to go.
    The third change we made, which is where we are today, 
recognizes yet another condition, and that was imposed in July 
of this year, which indicates that--and also for purposes of 
education when people hear about a fire in a tunnel we're a 
system that's basically concrete and steel. There's literally 
nothing to burn in our system. Most of these conditions are 
power-related conditions and arcing-related conditions that are 
classified as a fire condition. We have 50,000 of what are 
called insulators that work with our power distribution systems 
and sometimes those, when they're subjected to water conditions 
and if there's any kind of debris near it, get into a condition 
called arcing where they're kind of glowing. And under that 
condition the fire department has recognized that's a power 
issue. They don't want to deal with that themselves. But they 
allowed us to start to deal with those conditions on our own 
and we have found since that month of June that our situations 
are now literally on the average of only three to four per 
month, which has been about the average that we had experienced 
in the year before.
    So I think we are now exactly where we need to be as 
compared to a year ago and we are still working with the fire 
department to determine whether there are any other 
circumstances that we can be qualified to handle.
    Ms. Norton. That certainly is reassuring. The notion though 
that in order to decide what to do, obviously if you didn't 
know what to do you did the right thing. You're a public 
carrier and so you're responsible. I mean, the negligence is 
yours no matter what you do. The notion of shutting it down and 
finding out what to do is understandable but only because 
obviously there was not a worst case scenario that in advance 
would have told you what to do. I think that WMATA lost the 
part of its reputation that was tarnished, not so much from the 
fire but from the successive shutdowns thereafter, which said 
to people, my god, this is chronic. They haven't fixed it. So 
here you were shutting down for precautionary reasons for the 
most part but the message sent to the public said these guys 
are burning up now. We expect fires to come time and time 
again. That, it seems to me, speaks to the failure of 
management in advance to have foreseen that such matters could 
arise and to have had in place already a way to deal with them.
    What I take it--I understand you all are having--what do 
you call it? Not raids but----
    Mr. White. Surprise audit reviews.
    Ms. Norton. Yes. Does that kind of thing--I call it worst 
case scenarios, so that people are already trained, so that 
this could never happen. But suppose it does, this is what we 
do if the impossible happens so that people immediately go into 
that. I mean if you're in the military that's how you would 
have to behave. And I guess when you are a public carrier you 
either behave that way or you're right, you shut the business 
down and do worse by yourself than if something had actually 
happened.
    Mr. White. Yes, Mrs. Norton, we do regular emergency 
disaster testing drills that put us to the test with all of the 
local fire departments. We actually did one recently that was 
quite unprecedented. We did it involving Amtrak and the 
commuter rail services as well to test a worst case event in a 
common corridor where Metrorail shares the same type of track 
or adjacent track with passenger and freight railroads.
    The other thing we have done recently that in my opinion 
has proven to be one of the most successful things that we have 
done is we, each month now, have on a regular basis a set of 
after-action meetings where we bring in all the fire chiefs 
from all of the departments and sit down and review what 
happened that month for after-action reviews and lessons 
learned. And it used to be that didn't happen very regularly 
and when it did it only happened with the jurisdiction in which 
the event took place. Now everybody would like to know what 
happened there, if it happens in my part of the service 
territory, did I learn something about how Montgomery handled 
that that could be a benefit to the District. So that has 
worked quite well and I think is also another reason why our 
events have now normalized. I would agree with you the month of 
June was about as bad as it could get. It was a very difficult 
month for us and there were a lot of lessons learned.
    Ms. Norton. The chairman and I want to explore these 
funding problems. The chairman and I were looking at this graph 
that showed how much you were unfunded. Of course everyone says 
what everyone always says. We look to the Federal Government to 
fund us. Well, you know, good luck. Look what it has taken with 
the London Bridge falling down with the Woodrow Wilson Bridge 
to get what it should have gotten from the Federal Government 
for a Federal bridge.
    I want to explore this dedicated source notion that Ms. 
Fernandez talked about, that Ms. Dugger talked about, first of 
all, somebody testified, I think it's Ms. Fernandez, I don't 
know if this is said with pride or blame, but that WMATA gets 
more funds from the box than other systems. Should I applaud or 
is that part of the problem?
    Mr. White. No, that's a good statement.
    Mr. Davis. It depends on your philosophy, I guess.
    Mr. White. That's true. It is a reflection of how much we 
charge our customers.
    Ms. Norton. Let me go to my next question. Lately--the 
chairman wants to soak the poor. I am trying to find out how 
to--I am a Democrat. I am trying to increase ridership.
    Mr. Davis. She wants to soak the middle class.
    Ms. Norton. I am trying to figure out how to increase 
ridership. And some of what you've done in recent years has 
amounted to saying we're going to give up money in order to get 
more people; for example, your hours that have been lengthened, 
which costs you more money, but then you get an increase in 
ridership. Which leads me to why should I applaud that more 
people, including more poor people in the District of Columbia 
you know are paying through, are paying through the box and 
that cost is not being shared more equitably throughout the 
region, which has one of the highest incomes in the United 
States. Why should I applaud that people who make minimum wage 
jobs in the District of Columbia pay a greater amount of the 
cost of WMATA, are paying through the fare box then, that 
somehow this cost is spread around the region. So far you have 
not gotten at least one hand clapping here in the District of 
Columbia but perhaps you can enlighten me.
    Mr. White. Let me try to answer this in one of two ways. 
The first is that the fair recovery ratio is the product of two 
factors. One is an expense factor and the second is a revenue 
factor. So it is the two working in harmony. And a great deal 
of our improvement is as much related to expense containment as 
it is to ridership growth and the customer paying a particular 
share.
    Ms. Norton. You haven't raised fares since what?
    Mr. White. 1995.
    Ms. Norton. Any fare increases in the offing?
    Mr. White. We have made pledges as an institution to go to 
at least 2002 before we even consider it, and I would say a 
good number of the members of our board would like to be able 
to stretch that commitment much longer than that. So I think 
from that point of view it is commendable in that it is as much 
a factor of expense as it is revenue.
    The second one, Ms. Norton, is that factor is a combination 
of two issues. The bus fare recovery ratio is about 35 percent 
and 45 percent of our riders are district riders on the bus 
system. So that is subsidized two-thirds in recognition that 
it's a more labor intensive situation to run a bus situation. 
The rail recovery ratio is in the vicinity of 75 percent and 
again most of the District riders are one zone riders. So the 
rail system being as efficient as it is because of the volume 
of people it carries and the densities does bring in 75 
percent. And again that's a combination of expense and revenue. 
But you put those two factors together then you get our system 
percent, but those who use our services who are most in need, 
and that in many instances is our bus customer, does much 
better if you will. And beyond that things that we did in 
recognition of that is until the last fare simplification we 
used to charge a customer every time they transferred from one 
bus to another. And about 40 percent of our people on the bus 
system transfer, and even though it was 10 cents that's a major 
inconvenience. Throwing the cost of that transfer out, which we 
did, is a major benefit to the people, particularly in the 
District of Columbia.
    Ms. Norton. That's exactly what I meant.
    Mr. White. Maybe I can get one hand, if not two.
    Ms. Norton. Because it paid not to take more money in order 
to get more riders. I want to know about dedicated sources of 
income since that is talked about over and over again. First of 
all, is there any other jurisdiction in the United States that 
has a Metrorail system that does not have a dedicated source of 
income or are we unique or fairly unusual in that regard?
    Mr. White. The couple who are at the bottom of the list are 
ourselves, Boston and Miami, I think are the ones who are 
lowest down on the list on the major urban systems.
    Ms. Norton. Lowest on the list in what way?
    Mr. Lynch. Meaning least amount of dedicated resources that 
come their way. A number of systems are in the nineties and 
eighties and those are typically the California systems that 
Ms. Dugger had referenced, their access to a half cent sales 
tax and a property tax.
    Ms. Norton. Let me ask Ms. Dugger something.
    Mr. Davis. Would you yield to me?
    Is one of the problems you have to go through Virginia, 
Maryland and the District to try to get it and if you had one 
jurisdiction----
    Mr. White. It greatly complicates the fact that every year 
we must go through multiple jurisdictions.
    Ms. Norton. I was sure that was going to be a great part of 
the answer, but Ms. Dugger, is the system which deals across 
jurisdictional lines in California funded by the State or does 
each of those counties have to somehow come together to decide 
something with respect to funding?
    Ms. Dugger. There are two pieces of the funding puzzle, if 
I may. On the operating side we do have access to a portion of 
a half cent local sales tax that was established by the State 
legislature with the advocacy and consent of the parties in the 
region. That contributes to our operating budget where we too 
have a strong fare box recovery ratio. This year about 68 
percent of our operating cost coming from our fares which in 
turn allows us to use a portion of that half cent sales tax 
revenue as a revenue stream against which we bond to generate 
some predictable long term, multi-year funding to support our 
ongoing capital programs. Typically these projects require up 
front contractual commitments of a relatively large nature, 
many of them well exceeding what we might get in an annual 
appropriation process be it at the local, regional or State or 
Federal level. So the ability to have that ongoing permanent 
revenue stream which we can go to the market and say this is 
reliable and we can issue bonds against it has helped us in 
managing our capital investment program.
    On the capital side we are in a very competitive 
environment in a nine county Bay Area region with over two 
dozen transit operators providing service in that environment. 
So even the formula funds which flow to our region, whether it 
be from the Federal or State level, go through a fairly 
competitive process. I am not familiar, I am not intimately 
familiar with the details of WMATA but where we too have to get 
consensus within our region of multiple players, multiple 
decisionmakers in that funding environment.
    Ms. Norton. Mr. White, what difference would it make, 
perhaps it doesn't make as much difference as we think, what 
difference would it make if you had a dedicated source of 
revenue for WMATA?
    Mr. White. I think it's an important point to clarify that 
there is this notion of dedicated, which says there is a 
singular form of taxing revenue that comes directly your way, 
and that's one way some systems go. A way other systems go is 
access to what I'll call adequate, stable and reliable source 
of funding, which doesn't necessarily mean it's one singular 
source. I think----
    Ms. Norton. I'm sorry. You have to give me an example of 
what you mean by that.
    Mr. White. I think the State of Maryland, for example, 
would say we provide you with a dedicated source of revenue 
because we have a bunch of taxing revenues that go into our 
transportation trust fund and then they go out and they make 
decisions what goes to roads, what goes to transit, what goes 
to aviation, and although we can't count on the knowledge that 
we're going to get so much every year it's a source of revenue 
that is managed through their trust fund. And they might 
contend that it is some sort of adequate, stable and reliable 
funding.
    Ms. Norton. A trust fund, just to make sure, a trust fund 
at the discretion of the local jurisdiction to decide how much 
money you get is a reliable source of revenue for you?
    Mr. White. At the discretion of the State, yes. This is all 
managed at the State level. But to my way of thinking, Ms. 
Norton, I think the issue really is how can we with some degree 
of certainty have a knowledge that there is a predictable 
amount of funding that is going to come and we know generally 
what that level is and we know that it's good every year so we 
can do some long-term planning. And we are hampered a bit in 
not being able to do long-term planning, working off of hopes 
and expectations. Now, for example, we do have a funding 
agreement with our local funding partners to handle this 
rehabilitation thing through the year 2003 and that is 
reassuring in that our local funding partners have said we're 
good for this, this amount of money, during this period of 
time, but after that we would have to wait and see what 
happened. So to my way of thinking, what it is is to have some 
degree of knowledge no matter how the fund sources are applied 
that it's adequate, stable and reliable.
    Ms. Norton. I don't know what we can do for you because the 
political leadership in this region as well as it works 
together is completely bollixed up, I must say, ideologically 
on this score about how to do it. And perhaps the jurisdictions 
themselves need to get together if they're serious about things 
like roads, where the most serious problem exists, and to 
straighten it out. I recognize that mass transit is doing the 
best it can. But you are going to reach a problem and I can 
tell you that Congress is not going to just come up with money 
to make up for that gap.
    Finally, let me say to you, Mr. White, we in the District 
are pleased that WMATA has appropriated or agreed to buy some 
natural gas buses instead of all diesel buses. And as you know, 
I have been trying ever since that decision was made to get 
some Federal funds to make up for the loss that you would 
encounter because those buses apparently cost you more. Now 
that came late. And the money from transportation, the bill 
that just went through was earmarked up the gazoo and we have 
not been able to get money from the Federal Government.
    I would like to know if at least some natural gas buses 
nevertheless can be purchased in light of the fact that you are 
frankly choking to death little children in the District of 
Columbia. Our asthma rates are some of the highest in the 
country and your buses have a lot to do with that. We may be 
able if we keep up, because I think it's $5 million or more 
involved, to get some money. But we would hate to see given the 
emergency nature of the health crisis affecting children in 
particular with asthma in the District--we don't live in the 
wide open spaces of Fairfax County. We would particularly want 
you to spend some of that money on diesel buses and I ask you 
are you prepared to do that? I mean natural gas.
    Mr. White. Ms. Norton, our board has directed me to find 
out how to finance 100 compressed natural gas buses.
    Ms. Norton. You say what?
    Mr. White. The board has by its own policy resolution 
indicated that we're going to buy 100 compressed natural gas 
buses as our next purchase and they have directed me to come 
back to them in the month of November with an assessment of how 
we're going to finance that. So my job as directed by the board 
is to figure out how to do it, not whether we're going to do 
it. And we'll be reporting back in November with what our best 
hopes are as to how we're going to do that and we'll figure out 
a way to do it. There may be some financing involved. There may 
be some additional issues if we're not able to find a singular 
pot of money, but we're going to find a way to buy 100 
compressed natural gas buses.
    Ms. Norton. Oh, my goodness. That's the very best news to 
come out of this hearing for me, and I very much appreciate 
what you've just said. Thank you, Mr. Chairman.
    Mr. Davis. Thank you. Let me piggyback on that question. 
Natural gas buses cost more obviously to buy because of supply 
and demand. They're not that much in demand. How about the 
operations?
    Mr. White. Mr. Chairman, our board asked panel of experts 
from around the country to come and testify in their 
experiences so that they would have a full benefit of what's 
going on in the industry. And the answer to that question is 
that it's largely driven by what the environmental conditions 
are of each particular area, what the cost of natural gas is, 
which fluctuates quite dramatically. Depending on where you are 
in the United States, the price fluctuates. Generally, most 
people say that it's either fairly equivalent or the 
differential is not so significant as to warrant a decision on 
that basis alone. So that's the information we're going with.
    Mr. Davis. OK.
    Ms. Norton. Mr. Chairman, could I piggyback on that as 
well?
    We understand that Washington Gas built for Montgomery 
county a facility for fueling this, but then we heard, we said, 
well, perhaps we can get that, and we thought that was done, 
and probably in order, to show that this can work. And then we 
found out, or at least we were told, and here I am asking for 
information here that, in effect, Montgomery County was going 
to end up paying the entire cost at premium rates for it, and 
therefore, this was not much of a savings one way or the other; 
is that the case?
    Mr. White. Well, maybe. My mother certainly told me that 
nothing in life is for free, and if it sounds like too good of 
a deal, it probably is. In some instances what happens, and we 
did meet with the official of Washington Gas, so that we had 
the benefit of their perspective on this issue, and there are 
others who, on a commercial basis, provide a service which says 
that we'll build, operate and maintain your facility for you. 
We'll take care of it. You won't have to pay for it. It is 
clear they need to recoup their investment. They are not in the 
business of being so generous. So clearly, these arrangements 
are such that they are repaid in some form or fashion, and that 
may be in what the cost of the gas is that you purchase.
    Mr. Davis. Thank you. Let me ask a question, unlike the 
BART system in San Francisco, if I can draw a parallel, I 
understand Metrorail doesn't run the full-length, eight-car 
trains during rush hour; is that correct?
    Mr. White. Yes, sir. Our system has the physical capability 
to physically accommodate eight cars in a station, and that 
would take us literally from almost every square inch of one 
end of the station to the other. By the way, BART operates 10-
car trains and was set up to operate 10-car trains, and also 
has an added advantage of something called programmed stop in 
its automatic train operations, which allows the train to be 
stopped with more precision than ours can.
    We know that there is probably only two fundamental ways 
that we're going to be able to expand our capacity in our core 
system, and it's going to come from some combination of these 
two factors, if not one or the other. We are going to have to 
figure out how to run eight-car trains in order to carry more 
people through the system and figure out what kinds of things 
we need to do to support being able to run eight car trains. Or 
we need to reduce our headways or the intervals between trains 
by coming up with--accessing some new train technology. And 
there are those around the country, particularly in New York 
who are leading the industry right now in evaluating wireless 
train control technology, which has great benefits in allowing 
you to run more trains through the rush hour.
    So those two things are being studied. Those are two key 
questions, Mr. Chairman, that are being reviewed in our core 
capacity study that I referred to you that the answers to those 
questions would be ready by next year. And it is our staff's 
preliminary belief that that's where we got to go, in one of 
those two directions.
    Mr. Davis. How often do you have however many trains--
what's your usual train load?
    Mr. White. Most of our trains are six-car trains, some of 
them we still run four-car trains. And it's only because we 
don't have enough rail cars to make them----
    Mr. Davis. So it's not market-determined?
    Mr. White. Right now it's driven by the rail fleet at the 
moment, yes.
    Mr. Davis. Let me ask, if I can, Ms. Fernandez. Mr. White 
testified that the FTA recently completed a procurement review 
system at WMATA and it performed under a contract by Harris 
Consulting. The Harris report concluded that only 9 of 51 
elements were deficient, and 42 elements were not deficient. 
However, there's a concern that the negative findings might 
have been downplayed, for example, 23 of the elements found not 
deficient had at least one deficiency associated with them more 
over several of the elements; 19, 43 and 48 were determined to 
be not deficient, even though 25 percent of the files reviewed 
contained a deficiency of some sort. I wonder if you could 
explain to us just the criteria Harris used to conclude that 
elements were deficient or not deficient, and then give us your 
overall feel and try to make us feel comfortable with the 
findings.
    Ms. Fernandez. Yes, I'll be glad to do so, Mr. Chairman and 
Ms. Norton. I will say that these reports that were issued by 
our financial auditor, in fact, was a technical report, and 
that report was then interpreted to reflect information 
inaccurately. So I just wanted to make that statement. The 
procurement systems review is a system review that we conduct 
of all transit systems across the country. We do them in 
increments of 20 properties per year and the intent, the 
purpose is to ensure that the third party contracting 
requirements of our statute are, in fact, being followed 
through sound practices as it relates to the hiring of 
consulting services, the procurement of goods for these transit 
systems.
    In its executive summary, our consultant indicated that, in 
fact, of the 51 elements, 9 of those elements exceeded 25 
percent, which is a threshold that the industry has identified 
as an average, as a threshold. So 9 of the 51 exceeded 25 
percent, and that's what was attempted to be conveyed in the 
executive summary, and that's what you've been reading in the 
local media.
    Mr. Davis. In September 1997 the FTA completed a safety 
review of WMATA's Metrorail operations that cited serious 
weakness in the transit agency's safety procedures and 
practices, have you performed any followup of WMATA's safety 
operations since then and if so what have you found.
    Ms. Fernandez. Well, we have several oversight programs 
that are in place right now. One of them is our management 
oversight program of WMATA's capital program, which includes 
the construction of the light rail system, which is in addition 
to any projects within the CIP program for the bus services. 
That oversight is done on a priority basis. The safety 
oversight that you referred to earlier was one that did, in 
fact, identify a number of incidences where there were issues 
with the way that data was being collected and audits were 
being performed, particularly on the drug and alcohol program. 
But once we identified those deficiencies to WMATA, they took 
great strides in completing a corrective action plan. And we 
are very satisfied with what they have in place, their 
commitments include everything from training of personnel to 
hiring additional resources to ensure that these difficulties 
that were encountered earlier would not be repeated.
    Mr. Davis. OK. Thank you very much. Let me ask Ms. Dugger a 
question. Has your reinvestment program at BART led to some of 
the same public frustration that Metro has experienced.
    Ms. Dugger. One of the biggest challenges I think of 
delivering a reinvestment program on an operating system, 
especially when we're carrying record numbers of riders, is 
that you're taking equipment out of service to repair or 
overhaul or replace it just at a time when demand for the 
equipment and the service it provides is at its greatest. So 
maintaining customer loyalty, keeping focused on communicating 
with our customers to explain what is occurring is, of course, 
a critical requirement.
    I think the other realities of a renovation and 
reinvestment program as opposed to new construction is that it 
is somewhat less predictable. We are in the midst of rehabbing 
about 120 of our escalators on our system and inevitably, 
despite the best assessment going in, when you open up the kind 
of mechanical system, you find different rates of wear and 
different problems than you anticipated and the work itself can 
take longer than was estimated, longer than was advised--than 
the customers were advised of. So yes, it is a challenge. I 
think we are asking for our customers' patience and in so 
doing, trying very hard to articulate the long-term benefit and 
reliability and service improvement that this short-term 
inconvenience is causing.
    Mr. Davis. Thank you. Let me ask Ms. Porter a question. 
What are the difficulties you have--I used to serve on that 
panel that you're chairman of. What are the difficulties you 
have encountered in working with WMATA's board in key State and 
local stakeholders to identify funding, and what's the 
relationship between your board and the other stakeholders? I 
guess you come out of the same government, and you do the 
planning, but how does that relate to the funding?
    Ms. Porter. The transportation planning board is, as its 
name suggests, a planning organization. We don't control any of 
the funding sources that go for the transportation projects in 
the long-range plan. WMATA, as well as the local elected 
governments, are all part of the transportation planning board. 
We serve an overall regional function in bringing together 
sources of funding that are identified by these various funding 
sources and allocated to projects that they have set their 
priority on.
    As I said in my testimony, the problem that we've 
identified is not that WMATA is getting too small a share of 
the pie. The problem is the pie is too small. There is, as Mrs. 
Norton correctly identified, a problem in getting sufficient 
funding for all transportation projects in this region. WMATA 
is not the only agency that has a problem with funding. We also 
have difficulties funding, as you mentioned, road repair and 
improvement projects, also. So the problem as we have 
identified it is that there is a lack of adequate dedicated 
funding for transportation in the entire region.
    Mr. Davis. OK. Thank you very much. Mr. Carvalho, let me 
ask you a question. Does the board of trade have an official 
position or do you have a position on the impact of the 
Metrorail projects such as Largo and the Dulles lines, which 
address the need created by expansion in the suburbs, and how 
do you rank them with the priorities for repair and maintenance 
of the existing system?
    Mr. Carvalho. The expansion is clearly an important 
component of the overall transportation system. I think our 
focus here in what we're trying to convey is a fix-it-first 
mantra where funds, as they become available, go into 
maintaining a safe and reliable transportation system.
    Mr. Davis. Ms. Norton.
    Ms. Norton. Yes, Mr. Chairman. I have only two more 
questions. One has to do with the later hours, Mr. White. I'd 
like some notion of what the number, or even better, increased 
percentage of riders has been relative to what you expected it 
to be and whether or not you are considering making the hours 
even later.
    Mr. White. Our board has made permanent the extension of 
our hours from midnight to 1 a.m., so that's now on a permanent 
basis, and in this fiscal year, we are now operating on a 
demonstration basis until 2 a.m. So we've extended it that 
second hour. We're supposed to report back to our board in the 
spring of next year with an evaluation of how we're doing. I 
would say right now thus far that the experience has been 
largely close to what we had predicted it to be in terms of the 
number of people who use the system during that 2 hour period. 
It's generally, if I am recalling correctly, approximately 
10,000 additional trips each weekend that occurs because of the 
extra 2 hours of service.
    So I think that we've attempted also to try--these things 
require a little bit of extra time to see where the market is, 
to be able to experience periods of time when there's good 
weather and things like that. So I think we will have a very 
good data base by April of next year to report back to the 
board, and then it will be their policy decision as to whether 
we should keep the 2 a.m. in effect on a permanent basis.
    Ms. Norton. It's very important to do it over a space of 
time so you have a reliable sense that these numbers will 
reoccur. Do you have any sense of whether the increases in 
suburbs or city are relative to what you expected?
    Mr. White. It tracks largely where you would probably 
intuitively think where there is the most night life and 
reasons why people might be attracted to the system from a 
restaurant point of view and others, but one of the interesting 
things that we are seeing in a marketplace that is emerging as 
being an important marketplace are those who are using it to go 
to work. Those people who are working later hours in service 
industries and things of that nature find that it is to their 
benefit now to be able to actually literally work their work 
shift, which might be the non-traditional work shift, and to be 
able to get home at night on a late-night shift.
    And that's becoming a marketplace that we had not 
anticipated at the level that we're seeing it. So but 
generally, to answer your question, it's largely in the 
District of Columbia, in the Bethesda area, and also in a 
sections of Arlington is generally where most of this 
utilization is.
    Ms. Norton. Well, that's where the action is in this city, 
Mr. White?
    Mr. White. Right.
    Ms. Norton. Ms. Dugger, what are the hours of BART? Here 
we're talking about weekend hours here up to 1 a.m. It doesn't 
sound like much of a night town, I know.
    Ms. Dugger. We go to bed early in the Bay area too, so we 
can get up early and meet the east coast financial market 
opening. Our hours of service on weekdays are 4 a.m. until 12 
p.m. The last train gets back to its home yard, 1 or 
thereafter, so if you're in the system anywhere by 12 p.m., we 
say you can get home. On weekends we start a little later, 6 
a.m. on Saturdays and 8 a.m. on Sundays.
    The early weekday shift, or shift to earlier weekday 
openings to 4 a.m. was frankly a move we made after the Loma 
Prieta earthquake in 1989 when we were running 24-hour service 
for a period of months at that point because the Bay Bridge was 
out of service. What we found at that time--I wasn't at the 
organization at that time--but what was found at that time was 
a new market which was the early morning financial commute 
market; people going into downtown, as I say, to be there for 
the East Coast start of the financial market.
    We've continued that early morning service. Frankly, one of 
the challenges, we too are getting increasing requests for 
staying open later at night, in part to support the service 
industry. The pressure that starts to create for transit 
systems like ours, and I believe to a somewhat lesser extent 
WMATA, but with a very inflexible infrastructure, basically 
with tracks--only one track in each direction, we have a very 
small maintenance window when revenue service is not operating 
now.
    It's really from 1:30 a.m. until 4. So we have about 3, 
3\1/2\ hours every day during the week to get the wayside 
maintenance, the track maintenance, work done that we need to 
do. So that is one of the balances as we look at extended hours 
of service.
    Ms. Norton. They learned to do it in New York with a much 
longer system.
    Ms. Dugger. New York has much greater flexibility in terms 
of express tracks and being able to isolate one track for work 
while still operating service. In our case we don't have that 
flexibility to pass or to shift from one track to another.
    Ms. Norton. Did you say what you all do on weekends?
    Ms. Dugger. We begin revenue service at 6 a.m. on Saturdays 
and 8 a.m. on Sundays, and we end at the same midnight closing.
    Ms. Norton. I see. Finally, I am intrigued, Mr. White, in 
your testimony by the increasing indications that you come in 
under budget in construction. How are you able to do that?
    Mr. White. Well, of course, it's good management, Mrs. 
Norton.
    Mr. Davis. You have to stop right there.
    Mr. White. The last 13\1/2\ miles of our fast track segment 
was a $2.1 billion budget, and at this stage we are $250 
million under budget for that construction program. It's been 
applied to things we wouldn't otherwise be able to do, such as 
purchasing rail cars and building a rail maintenance facility. 
I would say it is attributed to a few factors. One is the fact 
that some of our price estimates or our cost estimates were 
built upon our previous experiences, and we did suffer through 
some very high inflation years, particularly in the 80's where 
that was extraordinarily high inflation.
    So we've been able to take advantage of lower inflation 
rates recently. We always try to promote the maximum amount of 
competition. And of course, as we all know, the more 
competition, the better the pricing. And we've been quite 
successful at attracting competition.
    And the other things we do as well is we take very 
seriously doing value engineering, which takes a critical look 
at all the elements that go into your system, and do you need 
all of those elements? You, of course, never want to sacrifice 
something that you really need, but if there are things that 
are not quite necessary, or if there's cheaper ways to do them, 
we take advantage of value engineering. And finally, we use the 
most advanced tunneling techniques that are available in the 
world to try to minimize the cost.
    Ms. Norton. I recognize some of this may be the good 
economy, but it's very nice to hear about underbudget other 
than cost overruns for a change. Thank you very much, Mr. 
Chairman.
    Mr. Davis. Thank you very much. Anything anyone wants to 
add on the panel before we adjourn? I want to thank all of you 
for participating today. I want to enter into the record the 
briefing memo distributed to the subcommittee members. We will 
hold the record open for 2 weeks from this date for those who 
may want to forward submissions for possible inclusion, and 
these proceedings are closed.
    [Whereupon, at 3:25 p.m., the subcommittee was adjourned.]
    [The prepared statement of Hon. Constance A. Morella and 
additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T5013.128

[GRAPHIC] [TIFF OMITTED] T5013.129

[GRAPHIC] [TIFF OMITTED] T5013.130

[GRAPHIC] [TIFF OMITTED] T5013.131

[GRAPHIC] [TIFF OMITTED] T5013.132

[GRAPHIC] [TIFF OMITTED] T5013.133

[GRAPHIC] [TIFF OMITTED] T5013.134

[GRAPHIC] [TIFF OMITTED] T5013.135

[GRAPHIC] [TIFF OMITTED] T5013.136

[GRAPHIC] [TIFF OMITTED] T5013.137

[GRAPHIC] [TIFF OMITTED] T5013.138

[GRAPHIC] [TIFF OMITTED] T5013.139

[GRAPHIC] [TIFF OMITTED] T5013.140

[GRAPHIC] [TIFF OMITTED] T5013.141

[GRAPHIC] [TIFF OMITTED] T5013.142

[GRAPHIC] [TIFF OMITTED] T5013.143

[GRAPHIC] [TIFF OMITTED] T5013.144

[GRAPHIC] [TIFF OMITTED] T5013.145

[GRAPHIC] [TIFF OMITTED] T5013.146

[GRAPHIC] [TIFF OMITTED] T5013.147

[GRAPHIC] [TIFF OMITTED] T5013.148

[GRAPHIC] [TIFF OMITTED] T5013.149

[GRAPHIC] [TIFF OMITTED] T5013.150


</pre></body></html>
